<html>
<title> - A STATUS REPORT ON UNITED NATIONS REFORM</title>
<body><pre>[Senate Hearing 109-719]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-719
 
                A STATUS REPORT ON UNITED NATIONS REFORM

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                              MAY 25, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
31-390                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    19
    Prepared statement...........................................    47
Bolton, Hon. John R., U.S. Permanent Representative to the United 
  Nations........................................................     3
    Prepared statement...........................................     7
    Responses to questions submitted by Senator Biden............    48
    Responses to a question submitted by Senator Allen...........    49
    Responses to questions submitted by Senator Martinez.........    50
Coleman, Hon. Norm, U.S. Senator from Minnesota..................    21
Dodd, Hon. Christopher J., U.S Senator from Connecticut..........    28
Feingold, Hon. Russell D., U.S. Senator from Wisconsin...........    35
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    15
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............    32
Voinovich, Hon. George V., U.S. Senator from Ohio................    25

                                 (iii)




                A STATUS REPORT ON UNITED NATIONS REFORM

                              ----------                              


                         THURSDAY, MAY 25, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Coleman, Voinovich, Biden, 
Sarbanes, Dodd, and Feingold.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order. The committee meets today to 
review the progress of reform at the United Nations. We are 
pleased to be joined by Ambassador John Bolton, who has been in 
the middle of the reform debate in New York and is working hard 
to advance reforms that will improve the transparency and the 
efficiency of the United Nations and safeguard against ethical 
and financial abuses that occurred in the recent past.
    On February 6 Senator Coleman, Senator Voinovich, and I 
went to the United Nations at the invitation of Ambassador 
Bolton. He graciously arranged meetings for us with the 
Security Council, ambassadors from the Group of 77, and other 
influential representatives. During each meeting at the United 
Nations we stressed that the Foreign Relations Committee 
remains united in believing that the United States and the 
world benefit from an effective United Nations. We underscored 
that most Americans want the United Nations to help facilitate 
international burden-sharing in times of crisis. They want the 
United Nations to be a consistent and respected forum for 
diplomatic discussions, and they expect the United Nations to 
be a positive force in the global fight against poverty, 
disease, and hunger.
    But we emphasized that the United Nations will have great 
difficulty achieving these objectives if its operations are 
encumbered by waste, corruption, and excess bureaucracy. 
Americans are deeply concerned by the Oil-for-Food scandal and 
the evolving investigation of kickbacks and rigged contracts in 
the United Nation's own procurement division. The influence and 
capabilities possessed by the United Nations come from the 
credibility associated with countries acting together in a 
well-established forum with well-established rules. 
Profiteering, mismanagement, and bureaucratic stonewalling 
squander this precious resource.
    Prior to our visit, I wrote to Secretary General Kofi Annan 
advocating the resolute and timely implementation of 10 reforms 
that would go far to build confidence in the United Nations. 
These 10 reforms do not conflict with the U.N. Charter or its 
mission. They would improve management practices and morale. 
They would enhance the U.N.'s global standing.
    Several of the 10 reforms have already been initiated, 
including the funding of an ethics office that will enforce 
lower gift limits, the establishment of a zero-tolerance policy 
regarding sexual exploitation by U.N. personnel, the 
strengthening of the Office of Internal Oversight Services, the 
launching of a review of U.N. mandates that are more than 5 
years old, and the creation of a whistleblower protection 
policy.
    A number of the reforms, however, are still being 
discussed, including an overhaul of the U.N. procurement system 
to prevent bribes and kickbacks, the establishment of an 
oversight body that will be able to review the results of 
investigations, a one-time staff buyout to allow for a more 
efficient use of personnel, and improvements in external access 
to all U.N. documents.
    The adoption of these reforms would not end the reform 
debate, nor should it. Reform cannot be treated like a one-time 
event. Rather, it should be an inherent part of the U.N. 
operating culture.
    How the United Nations addresses human rights issues is 
particularly important. The United Nations recently elected a 
Human Rights Council to replace the discredited Human Rights 
Commission. Assistant Secretary of State for International 
Organizations, Kristen Silverberg, has said: ``On the whole, we 
think it is an improvement over the Commission.''
    Nevertheless many important U.S. objectives were not 
achieved with regard to the structure of the Council, and the 
United States declined to seek a seat this year. We look 
forward to hearing Ambassador Bolton's views on the Human 
Rights Council. We are interested to know more about the 
administration's plans for dealing with the new body. In the 
absence of a seat on the Council, what is our strategy for 
maintaining U.S. advocacy for human rights at the United 
Nations? Do opportunities exist to improve the structure of the 
Council? What benchmarks would the administration use to 
determine whether it will run for a seat next year?
    We also have great interest in Ambassador Bolton's 
assessment of current Security Council deliberations on Iran. 
The Bush administration has been attempting to build an 
international coalition capable of applying economic and 
diplomatic pressure on Iran that could dissuade it from 
continuing its drive toward a nuclear weapons capability. Thus 
far, efforts to obtain a Security Council consensus on a firm 
response to Iran's intransigence have not been successful.
    Last week the Foreign Relations Committee held two hearings 
on Iran that focused on evaluating United States options. Today 
we are eager to continue these discussions with the benefit of 
Ambassador Bolton's firsthand report on the diplomatic 
situation in New York.
    Again, we thank the Ambassador for joining us. We look 
forward to his insights. At the time that the distinguished 
ranking member joins us, I will ask him for opening comments 
that he may have. But at this point I would like to proceed 
with your testimony, Ambassador Bolton. Your entire statement 
will be made a part of the record in full and we would enjoy 
your comments. You are our sole witness, so be as extensive as 
you wish, and then the committee will have opportunities for 
questions of you.

STATEMENT OF HON. JOHN R. BOLTON, U.S. PERMANENT REPRESENTATIVE 
                     TO THE UNITED NATIONS

    Ambassador Bolton. Thank you very much, Mr. Chairman, 
members of the committee. It is a pleasure to be here today and 
I appreciate you putting the full prepared statement into the 
record. Perhaps what I can do is try and summarize some of the 
key points and then, of course, I would be happy to take the 
committee's questions.
    I think first, I would return to the last hearing that you 
held on the subject of U.N. reform, the witness who spoke 
first, former Federal Reserve Chairman, Paul Volcker, who 
described his investigations into the Oil-for-Food scandal and 
the mismanagement and corruption that he found and reported in 
several doorstop-thick reports. He was asked--Chairman Volcker 
was asked--during that hearing if he thought there was a 
culture of corruption in the United Nations. He said: ``No, I 
do not think there is a culture of corruption, although there 
is corruption. I think there is a culture of inaction.''
    ``A culture of inaction.'' That is a profound insight into 
some of the difficulties that we face in terms of achieving 
reform. It contrasts with the mission that Secretary Rice has 
given us. She described it in her speech to the General 
Assembly last fall, where she said what the United States seeks 
is, in her words, ``a lasting revolution of reform.''
    ``A lasting revolution of reform.'' You know, it is not 
often that an American Secretary of State calls for revolution, 
but I think that is the measure of the strength of her feeling 
on the subject. We have been working on it since September, 
since the summit, when 150 heads of state and government came 
together in the outcome document that they produced, pushed 
forward the envelope on reform, and really gave all of us in 
New York our instructions about how to proceed.
    Just to recall what the President said to the General 
Assembly last September, he said: ``Meaningful institutional 
reforms must include measures to improve internal oversight, 
identify cost savings, and ensure that precious resources are 
used for their intended purpose.'' That, obviously, is the 
standard that guides us as we proceed.
    Let me address three areas of reform that are really before 
us over the next weeks and months, and then also touch on some 
of the other issues that you mentioned, like the Human Rights 
Council. The first is the broad area of management reform. Here 
I must report that progress has not been good. The standard 
that we are trying to reach there was really provided by 
Secretary General Kofi Annan in a report that he submitted to 
the General Assembly in March of this year called ``Investing 
in the United Nations.'' He recalled some of the earlier reform 
efforts that had been made at the United Nations, including 
some from earlier in his tenure. Let me just quote his analysis 
of what is really needed because it is a good summary of the 
way we think about it as well.
    Secretary General Annan said: ``The earlier reforms 
addressed the symptoms more than the causes of our 
shortcomings. It is now time to reach for deeper, more 
fundamental change. What is needed and what we now have a 
precious opportunity to undertake, is a radical overhaul of the 
entire Secretariat--its rules, its structures, its systems--to 
bring it more in line with today's realities and enable it to 
perform the new kinds of operations that member states now ask 
and expect of it.''
    The Secretary General's report contained a number of very 
specific recommendations that were referred to the Fifth 
Committee of the General Assembly, the budget committee, where 
extensive meetings were held and various reactions were put 
forward by different members. We were up until a few weeks ago, 
in the process of trying to work our way through deciding which 
of the reforms that the Secretary General had proposed, which 
we would accept and which we would not. I will say the United 
States strongly supported the general thrust of what the 
Secretary General had suggested. We did not support each and 
every reform. To be sure, in some cases we thought what the 
Secretary General had suggested were good first steps, not as 
far as we would go, but certainly warranted support.
    As I say, we were discussing all of these issues when the 
Group of 77 introduced a resolution that substantially rejected 
the bulk of what the Secretary General had proposed. Not 
entirely and not conclusively, but it was essentially an 
across-the-board expression of dissatisfaction with the 
Secretary General's recommendations.
    We pushed, along with our European and other allies, to try 
and work some kind of consensus solution so that we could still 
move forward with as many of the Secretary General's reports as 
possible, but the G-77 seemed determined not to have that 
happen, seemed determined to push the measure to a vote, which, 
as you know, is very unusual in the Fifth Committee, which has 
operated on the basis of consensus since the mid-1980s, when 
the Fifth Committee at that time routinely, and by large 
majorities, rejected the U.S. position on budget matters, in 
response to which the Congress began to withhold U.S. 
contributions.
    We were unsuccessful, we, the European Union and Japan, 
were unsuccessful in preventing a vote. So both in the Fifth 
Committee and in the General Assembly subsequently, the 
Secretary General's report--the resolution rejecting much of 
the Secretary General's report--was adopted, finally, in the 
General Assembly by a vote of 121 to 50. The 50 countries, of 
which we were one, comprised the 25 countries of the European 
Union, almost all of the states of Eastern Europe, including 
several which are applicants to the European Union, Canada, 
Australia, New Zealand, Japan, the United States, South Korea, 
Turkey, Israel, and a number of other states.
    The 121 countries that voted to reject the Secretary 
General's reforms in the aggregate contribute a little bit over 
12 percent of the total U.N. budget. The 50 countries that 
supported the Secretary General's reforms contribute almost 87 
percent of the budget. That is, unfortunately, a good 
description of the distribution of opinion that we face.
    We had hoped to move forward from this defeat of management 
reform, and the Secretary General indeed, just last week, 
submitted four new reports more specifically outlining his 
proposals. Just a few days ago, the G-77 sent the Secretary 
General a letter, which I would be happy to supply a copy to 
the committee, basically upbraiding the Secretary General for 
not listening to the resolution which was passed.
    We have urged the Secretary General to respond strongly, to 
defend his recommendations, to defend his reports, to continue 
to work on management reform. We have been assured by the 
Secretariat that, in fact, he will do that. The Secretary 
General is now in Southeast Asia, but I think what it shows is 
the road ahead on management reform remains difficult.
    Second, Mr. Chairman, you mentioned the question of 
oversight. This comes about in a number of ways. The ethics 
office that you mentioned, which has been established and which 
now needs to improve its ability to enforce ethics requirements 
on Secretariat employees. The Office of Internal Oversight 
Services, this is something that I must say has been a personal 
priority of mine since the time of Dick Thornburgh's tenure at 
the United Nations, when he was Under Secretary General for 
Management and Administrative Affairs. It was during his time 
there in 1992 that the OIOS, the impetus for the OIOS, was put 
forward.
    Dick Thornburgh imagined that OIOS would be like an 
inspector general's office in the U.S. Government, providing 
the same kind of independent, forceful review of management 
within the Secretariat. But unfortunately, even when it was 
established, OIOS did not have the same kind of strength and 
independence that our inspectors general have. The effort to 
have independence for OIOS remains a very high priority for the 
United States.
    I would just quote to you from the findings of the 
Comptroller General, just last month in fact, on his--GAO's--
examination of the U.N.'s Office of Independent Oversight 
Services. The Comptroller General said: ``U.N. funding 
arrangements constrain OIOS's ability to operate independently 
as mandated by the General Assembly and required by 
international auditing standards OIOS has adopted. OIOS depends 
on the resources of the funds, programs, and other entities it 
audits. The managers of these programs can deny OIOS permission 
to perform work or not pay OIOS for services. U.N. entities 
could thus avoid OIOS audits and investigations and high-risk 
areas can be, and have been, excluded from timely 
examination.''
    This is obviously something of great concern to us. In 
February when the United States was president of the Security 
Council we convened a meeting of the Council to discuss 
procurement fraud and a separate meeting to discuss sexual 
exploitation and abuse by U.N. peacekeepers. We had hoped that 
the Under Secretary General for OIOS would come before the 
Council, but the request was denied, unfortunately.
    We are going to continue to work for OIOS independence. 
This is entirely consistent with Paul Volcker's recommendation 
to have strong and independent outside auditing capabilities 
and to make sure that within the U.N. system itself that the 
auditors are able to perform their function and that OIOS can 
really attain that status of inspector general that Governor 
Thornburgh had in mind, originally.
    Third, Mr. Chairman, on the subject of mandate review, 
which we think is the next most critical element of the reform 
process, the Secretariat provided to the membership a 
compendium of some 9,000 mandates that the General Assembly, 
the Security Council, and other bodies have imposed on the 
Secretariat over the years. We are going through those mandates 
now, in a systematic way, working very closely with the other 
members of the General Assembly, within the Security Council, 
to conduct that mandate review.
    The United States along with Slovakia are the cochairmen of 
the Security Council mandate review. In particular, we have 
pulled together a group of like-minded countries to work with 
us on mandate review, a group that goes by the unlikely name of 
JUSKCANZ, as in ``cans of juice.'' It comes in this way, 
building sort of backward from its origin, starting with the 
CANZ Group--Canada, Australia, New Zealand, which, obviously, 
had a lot in common and worked closely together on a variety of 
U.N. matters.
    We added ``JUS'' to ``JUSKCANZ'' by bringing Japan and the 
United States together with them; Japan being the second 
largest contributor after the United States with about 19.5 
percent of the assessed budget. I am pleased to say that just a 
few weeks ago we brought South Korea into JUSKCANZ, so it is 
now spelled J-U-S-K-C-A-N-Z, still pronounced ``Juice Cans.'' 
We together provide almost 48 percent of the assessed 
contributions.
    We have developed a list of some of the priorities we would 
like to see examined in the mandate review process. We have had 
extensive discussions with our friends in the European Union. 
We are planning outreach activities to the G-77 in hopes of 
persuading some of the more moderate countries there to work 
with us on mandate review.
    But we are coming up on a crunch on June 30, when the 
expenditure cap, which was agreed to in December in the General 
Assembly, comes into play. This was something we felt would 
provide an incentive for extensive reform to take place. It was 
supported by the Secretariat back in December. To date, 
unfortunately, on the mandate review side, no mandates have 
actually been revised or eliminated or consolidated. So there 
is a lot of work to do between now and June 30.
    One thing that we are considering, and we have discussed 
this in New York, that we be prepared to consider, is extending 
for 90 days the expenditure cap. In other words to avoid a 
crisis, to show our good faith, and give us more time to 
negotiate, we would be prepared to extend the expenditure cap 
from June 30 roughly to September 30. That has not been widely 
accepted in New York yet, but we are not eager to provoke a 
problem on June 30. Another 90 days would give us more time.
    We are not asking for anything in exchange for doing this. 
We are simply saying this would be something to consider to 
give us more time, to show progress on the reform front.
    Mr. Chairman, I do not want to take too much more time, but 
I did want to address the Human Rights Council, which I know is 
of great interest to the committee. You have summarized our 
position. I will say at this point the action has basically 
shifted to Geneva, which would be the venue for the council, as 
it was for the former Human Rights Commission, and our 
colleagues in our mission in Geneva and the other missions 
there are working on the extensive amount of preparatory 
decisions that have to be made before the council convenes on 
June 19.
    Our belief is that by not presenting the United States as a 
candidate for this first Human Rights Council, we can, 
nonetheless, work very effectively in the early decisionmaking 
process, the agenda, the procedures, all of the many decisions 
that have to be made in setting up this new body. I think we've 
got empirical evidence for why that is right. When the United 
States was defeated for the Human Rights Commission in 2001 
and, therefore, did not serve in 2002, I think those who 
participated in the work of the Commission then would say that 
actually the U.S. view was somewhat more highly prized than it 
was when we were actually a member of the Commission, because 
people were eager to get us back on.
    So we are both in Washington and in Geneva and in New York 
in a supporting role, working hard on these early decisions, 
and that is certainly something that Secretary Rice is paying 
close attention to. We do not really know what the outcome will 
be. I think the question of what the performance of the new 
Human Rights Council will be will depend on what happens when 
they actually get rolling. It could in fairness, be 2 or 3 
years before we can truly gain an accurate assessment of 
whether it turns out to be a better performing decisionmaking 
body than the predecessor--the Commission. But there is no 
diminution in the U.S. commitment to human rights standards 
around the world. There is no letup with our activity and we 
are working hard in Geneva in preparation for the opening of 
the council on the 19th of June.
    With your permission, Mr. Chairman, perhaps I will stop 
there. I know there are a number of questions. There is more I 
would like to cover, but I feel it is probably better to stop 
now and take the committee's questions.
    [The prepared statement of Ambassador Bolton follows:]

Prepared Statement of Hon. John R. Bolton, Permanent Representative of 
                the United States to the United Nations

                              INTRODUCTION

    Mr. Chairman, thank you for inviting me to speak before you here 
today. The 7 months that have passed, since I last had the opportunity 
to meet with you, have witnessed a great deal of activity at the United 
Nations on a number of critical issues in which the committee has a 
great deal of interest. In the time I have before you today, I would 
like to provide you an update on where we stand, the progress we have 
made, and some of the challenges I believe we still confront in the 
days ahead. In addition to discussing some of the longer term issues 
related to U.N. reform, such as management reform, and the new Human 
Rights Council, I would also like to provide you with an update on 
where we stand with regard to several of the most critical issues 
currently on the agenda of the Security Council, notably the Iranian 
nuclear threat, Darfur, and Lebanon. In light of the recent 
deteriorating situation in Burma, I will also make mention of that, as 
well, as it may well arrive shortly back on the Security Council 
agenda.
    At the outset, I would like to thank you and your colleagues for 
your continued interest in reforming the United Nations so that it 
lives up to the cherished ideals outlined in its original charter. Your 
collective attention to this matter has been a valuable tool in our 
diplomatic efforts in New York. Through your ongoing efforts, both the 
U.N. Secretariat and delegations of other member states have a much 
greater appreciation of the importance the Congress--mirroring the 
American people--attach to the subject of U.N. reform. As the United 
Nations largest financial contributor, totaling some 22 percent of the 
regular assessed budget, the United States has a vital stake in 
ensuring that the United Nations succeeds.

             A REPORT CARD ON REFORMING THE UNITED NATIONS

Changing the culture
    Mr. Chairman, when I first testified before you in my current 
capacity last October, only 1 month had transpired since the signing of 
the ambitious Outcome Document by over 150 heads of state at the 60th 
anniversary of the U.N. General Assembly. Now with several more months 
under our belt, we are better situated to evaluate where we stand on a 
number of key issues. To be frank, though, the overall results have not 
been particularly encouraging. There has been some movement, but no 
real notable successes so far.
    Rest assured, though, that the United States and many like-minded 
nations are working assiduously to keep the pressure on to reform. The 
U.S. mission is actively engaged in this effort to realize the goals 
outlined by President Bush during his address before the General 
Assembly last September, where he noted, ``meaningful institutional 
reforms must include measures to improve internal oversight, identify 
cost savings, and ensure that precious resources are used for their 
intended purpose.'' It is important for member states to take greater 
responsibility for governing how their citizens' taxpayer dollars are 
spent.
    We are taking steps to work with others to overhaul the system. One 
positive step forward was our success in imposing more fiscal 
discipline on the U.N. system last December. At a time when it appeared 
the reform effort was stalling, it would have been irresponsible for 
member states to approve a ``business-as-usual'' 2-year budget. By 
securing passage of a limit on U.N. spending through imposition of a 
spending cap on the 2-year budget, the United States scored a 
significant diplomatic victory in a consensual manner, despite many 
member states' initial shock at the suggestion of using the budget as a 
lever to secure further progress on reform efforts. In a few weeks 
time, we will be situated to examine progress to date and to determine 
whether, and in what form, further spending should be authorized. 
Currently, we estimate that the interim budget will run out of money in 
early July.
    Other cases have demonstrated the importance of standing firm. Let 
me give you one telling illustrative example of the environment and 
culture we face in New York City. As I testified before you last 
October, the United States views, as a major and important achievement, 
the decision by world leaders last September to create a Peace Building 
Commission and Support Office. These past months, we have been engaged 
in negotiations on details related to the office's creation--notably 
funding. The United States adhered to guidance provided in the Outcome 
Document--approved by 150 world leaders--which was then operationalized 
through a General Assembly resolution to ensure that the Peace Building 
Support Office to support the new Peacebuilding Commision would be 
created within existing resources. While ``within existing resources'' 
can legitimately be defined a number of support services to 
peacekeeping missions, resulting in missions unable to fulfill their 
mandates effectively. It means that when we are discussing management 
reform and U.N. reform more broadly, we are actually ultimately talking 
about people's lives.
    One need look no further than the Oil-for-Food scandal to 
illustrate this point. It was before this very committee that Paul 
Volcker, who chaired the inquiry into that scandal, coined the now oft-
used expression ``culture of inaction'' that remains pervasive at the 
United Nations. Changing that culture and adapting it to modern-day 
management and accounting norms is no small task, but failure to do so 
is simply to invite future scandals. And, while the figures are well-
known to many, they bear repeating in a public forum as often as 
possible. According to the Independent Inquiry Commission led by 
Chairman Volcker, Saddam Hussein's regime diverted some $1.8 billion in 
illicit kickbacks and surcharges, with more than 2,000 companies 
involved in these illicit payments. The report recently released by the 
Government Accountability Office notes that Saddam Hussein's regime 
might have obtained up to $12.8 billion in illicit revenue in the 
process. This money went directly into the coffers of one of the most 
oppressive dictatorships this world has ever known, creating a 
multiplier effect for financing terror in and beyond Iraq.
    Member states have little justification to complain about failures 
within the U.N. system, if they, themselves, fail to take 
responsibility at even attempting to impose fiscal discipline on 
agencies or programs they are funding. Many U.N. agencies are, in fact, 
well run and do work which serves the international community and 
member states well. In looking at some of the best-run agencies within 
the U.N. system, there appears to be another factor at play in 
determining the level of performance that we should explore--the 
funding mechanism. In the case of UNICEF, for example, William Brisben, 
U.S. Representative to UNICEF, noted last year that, one of the keys to 
UNICEF's success is its emphasis on measurable results, which document 
and prove to existing and potential contributors that their money is 
being well-spent. It bears repeating the words of Catherine Bertini, 
former U.N. Under Secretary General for Management and former head of 
the World Food Programme (WFP), noted that, ``Voluntary funding creates 
an entirely different atmosphere at WFP than at the United Nations. At 
WFP, every staff member knows that we have to be as efficient, 
accountable, transparent, and results-oriented as is possible. If we 
are not, donor governments can take their funding elsewhere in a very 
competitive world among U.N. agencies, NGOs, and bilateral 
governments.''
    This is not necessarily to suggest that voluntary contributions are 
the proper model for all operations at the United Nations; other 
options are available and, in fact, utilized. It is noteworthy that 
many member governments, including the United States, already make 
voluntary contributions to particular specialized agencies or programs 
in addition to their assessed contribution.
    As the United Nations largest financial contributor, with our 
annual assessment constituting 22 percent of the regular budget, the 
United States bears special responsibility to advance reform.
Management reform
    In terms of specific priorities, the United States has consistently 
made clear that management reform is at the top of our agenda. Progress 
in this regard will have a transcendent impact on a number of issues 
related to all U.N. programs, including efficiency, transparency, and 
accountability. The United States has joined with others to launch an 
ambitious agenda of reform--reforms we think are vital to putting the 
United Nations back on track. This is consistent with Secretary Rice's 
call last September before the 60th meeting of the General Assembly to 
``launch a lasting revolution of reform.'' There have been some 
successes. We applaud, for example, the recent increase in resources 
for oversight and the implementation of whistleblower protection within 
the U.N. system. We also applaud the creation of an ethics office and 
the issuance of stricter financial disclosure requirements.
    Already, though, we have seen sharply divided positions emerging on 
some key issues. Some member states have made it clear their interests 
are served by not reforming the United Nations. Many members of the 
Group of 77, or G-77 as it is known, are resisting efforts by the 
Secretariat to reform and streamline basic managerial structures and 
practices. They rallied together in response to the March 2006 report 
by the Secretary General, which offered a remarkably frank assessment 
of the situation we face today. His assessment was as follows: ``The 
earlier reforms addressed the symptoms, more than the causes, of our 
shortcomings. It is now time to reach for deeper, more fundamental 
change. What is needed, and what we now have a precious opportunity to 
undertake, is a radical overhaul of the entire Secretariat--its rules, 
its structure, its systems--to bring it more in line with today's 
realities, and enable it to perform the new kinds of operations that 
member states now ask and expect of it. . . . Such a radically expanded 
range of activities calls for a radical overhaul of the United Nations 
Secretariat--its rules, structure, systems, and culture. Up to now, 
that has not happened.''
    Outlined in this report were a number of specific proposals to 
reform the U.N. system to increase efficiency. Recently, the Fifth 
Committee, which is the member state body in the U.N. system that 
handles budgetary and management-related issues, voted against many 
measures that would have increased the ability of the Secretariat to 
implement a number of significant and genuine reforms. To be sure, we 
do not agree with every single reform proposed by the Secretary 
General, but we certainly agree with his diagnosis of the problem and 
support his efforts.
    What was particularly interesting about the Fifth Committee vote on 
some of the Secretary General's proposed reforms was the way the vote 
split. On one side are a group of 50 nations, including the United 
States, who are pushing an ambitious reform agenda, and whose combined 
contributions happen to total more than 86.7 percent of the U.N. 
budget. On the other side are over 120 nations who contribute 12 
percent of the budget, and are blocking these reforms. The United 
States is still actively negotiating many of the types of reforms 
proposed by the Secretary General, though we must acknowledge it will 
be an uphill battle, with a majority of member states throwing down the 
gauntlet to reflect their opposition to some of the most anodyne of 
reforms. This was exemplified just last week when they wrote a letter 
to the Secretary General chastising him for issuing reports to the 
public on his proposals for some reforms he feel is necessary. We 
believe it is important that all member states support the Secretary 
General in fulfilling his responsibility as Chief Administrative 
Officer as laid out in the U.N. Charter.
OIOS independence
    Closely related to the issue of management reform is the importance 
of increasing the transparency and accountability of myriad 
institutions within the U.N. system. We remain concerned about the 
independence and autonomy of the Office of Internal Oversight Services, 
or OIOS. OIOS is the Inspector General of the United Nations, the body 
charged within the U.N. system to provide internal auditing, 
investigation, and evaluation of all activities under the authority of 
the Secretary General. The problem, though, is that in several ways 
OIOS is potentially beholden to those it is responsible for 
investigating. This inherently creates a conflict of interest, whether 
any specific one is identified or not. Just last month, the U.S. 
Government Accountability Office issued a report that concluded:

          U.N. funding arrangements constrain OIOS's ability to operate 
        independently as mandated by the General Assembly and required 
        by international auditing standards OIOS has adopted. . . . 
        OIOS depends on the resources of the funds, programs, and other 
        entities it audits. The managers of these programs can deny 
        OIOS permission to perform work or not pay OIOS for services. 
        U.N. entities could thus avoid OIOS audits and investigations, 
        and high-risk areas can be and have been excluded from timely 
        examination.--Statement by David M. Walker, Comptroller General 
        of the United States, ``United Nations: International Oversight 
        and Procurement Controls and Processes Need Strengthening,'' 
        United States Government Accountability Office, April 27, 2006.

    This situation is untenable and serves as an open invitation to 
those who may seek to defraud or abuse the system. As another measure 
to ensure OIOS's independence, we encourage OIOS to continue providing 
to member states any and all findings and conclusions it reaches 
whenever requested, a requirement the United States succeeded in having 
adopted by the U.N. General Assembly. OIOS can serve as a valuable tool 
for member states to take action or push through reforms that are 
sorely needed. We will push hard to make sure that the Independent 
Audit Advisory Committee is fully established to validate OIOS's work 
and ensure OIOS's independence of the U.N. Secretariat.
Mandate review
    Establishing a fully independent and autonomous OIOS goes part and 
parcel with another major initiative currently underway in New York: 
The review of program mandates authorized by either the General 
Assembly or the Security Council that are more than 5 years old. 
Implementing an established and routine process to review program 
mandates is critical because there is no systemized process in place to 
review mandates, and thus mandates have been examined only in an ad hoc 
fashion by the United Nations, the UNGA, and the UNSC. We have no way 
of halting mandates that are obsolete or ineffective, and thus the 
United States and all other contributing members of the United Nations 
continue funding them. We hope to establish an ongoing process that 
will enable us to review program mandates not just now, but in the 
future as well. Reform of the United Nations should be done on a 
continuing basis, not just done in an ad hoc fashion.
    Unfortunately, we are encountering intense opposition from the G-77 
on this issue. They currently argue that their review excludes mandates 
that have been renewed by the General Assembly within the last 5 years. 
The G-77 position, if adopted, would unfortunately exclude from review 
some 75 percent of presently active mandates and hamper our ability to 
eliminate significant waste and overlap within the U.N. system. To 
date, these countries have made clear their interest in the status quo 
on this issue, which has resulted in active opposition to any genuine 
reform. At this stage, it is not possible to predict the ultimate 
outcome. With the budget cap set to expire in early July, we must work 
with our allies to persuade those opposed to reform to change their 
views.
Human Rights Council
    That past March, we also witnessed the creation of the new Human 
Rights Council. As you know, the United States did not feel it 
appropriate to run for a seat on the Council given our opposition to 
its final structure in the first place. This in no way reflects, 
however, our unwavering commitment to human rights. We remain concerned 
that its institutional design could lead it to replicate the same flaws 
of old and will continue to work with countries that wish to promote 
and protect human rights as an observer on the Council. We urge Council 
members to work toward the protection of vulnerable populations from 
gross abuses of human rights in places such as Burma, Darfur, and North 
Korea.
    With respect to the composition of the new Council, some countries 
with abysmal records did not secure enough votes to be elected, such as 
Iran and others on troubling trajectories such as Venezuela. And while 
there may be some improvements over the old Commission on Human Rights, 
we remain concerned that a number of countries elected lack a genuine 
commitment to the protection and promotion of human rights, and have 
themselves been cited as gross abusers of human rights. While we do not 
hold a seat, rest assured that the United States will be actively 
engaged as observers when the new Council convenes for the first time 
on June 19 in Geneva.

         CRITICAL ISSUES CONFRONTING THE U.N. SECURITY COUNCIL

Iran
    Turning now to critical issues confronting the Security Council, it 
is certainly the case that the past few weeks have witnessed a flurry 
of activity on a number of important problems that I know this 
committee is keenly interested in.
    In terms of resolving the Iranian nuclear issue, we are actively 
engaged with the United Kingdom, France, and Germany, or the EU3, as 
well as with China and Russia, and others, in seeking a peaceful and 
diplomatic solution. All of us share the same goal and belief that a 
nuclear-weapon-equipped Iran would pose a grave and serious threat to 
international peace and security. This would be true regardless of who 
leads Iran, but the inflammatory rhetoric of the Iranian regime's 
leader only serves to heighten tensions in the region.
    It is difficult for me to go into specifics at this time, as just 
yesterday (May 24) there was a meeting in London of P5-plus-one 
Political Directors. I can tell you, though, that consultations in New 
York continue on a chapter VII resolution in the Security Council. 
Failure of the Security Council to act on this urgent matter would send 
a telling signal to other would-be proliferators that the United 
Nations lacks the political will to tackle the greatest threats to 
peace and security confronted by the international community.
    In addition to the nuclear question, know that the United States 
remains deeply committed to protecting and promoting the human rights 
and democratic aspirations of the Iranian people. It is with this in 
mind that Secretary Rice has requested a $75 million increase from 
Congress to support democratic efforts within the country. We consider 
ourselves allies of the Iranian people in this effort; which is why it 
is so important to reiterate that our concerns are with the current 
regime, not the people of Iran.
Darfur
    Turning now to the steps we are taking to try to stop the genocide 
in Darfur, where some 200,000 have died due to conflict, famine, and 
disease in a civil war that has left over 2 million homeless since 
2003. Atrocities must stop--like sexual violence to women in camps of 
displaced people--and those who have committed them must be held to 
account. There is some good news to report. Just last week, the 
Security Council unanimously passed Resolution 1679, which will 
facilitate planning for the future deployment of a U.N. peacekeeping 
operation in the Darfur region. It also has provisions calling for 
increased assistance to the current African Union peacekeeping force 
already in Sudan known as AMIS (African Mission in Sudan).
    We are particularly pleased that the resolution passed under the 
authority of chapter 7 of the U.N. Charter. This is the part of the 
U.N. Charter that allows the Council to impose binding obligations on 
U.N. member states, and invoking it in this resolution underscores the 
importance the Council attaches to restoring peace and security in 
Darfur. This was a major diplomatic success for the United States given 
opposition by China and Russia.
    This resolution sends a strong message to the Government of Sudan 
that it must not resist the U.N. efforts to supplement and augment the 
existing African Union peacekeeping force already there. This 
resolution will hopefully speed up the transition from the current 
African Union force of 7,000 to a much larger one of up to 14,000 under 
the command of the United Nations. We have seen some estimates that it 
might take 6 to 9 months for the augmented U.N. peacekeeping force to 
on the ground. While that timeframe seems long to us, we are pleased 
that Resolution 1679 will help expedite that process now that more 
formalized planning can begin. While it is premature to go into detail 
about the exact nature of the contribution the United States will make 
to the new operation, we are actively involved in the planning process, 
and are prepared to utilize both U.S. and NATO assets where 
appropriate. Planning for the insertion of a U.N. peacekeeping force 
has already begun. Currently, an assessment team is preparing to visit 
Khartoum, and a delegation of members of the Security Council will be 
visiting shortly.
Lebanon
    Finally, let me address the issue of Lebanon. Last week was an 
important stepping-stone toward hopefully achieving our goal of a 
democratically elected government in Lebanon free from interference by 
foreign forces, notably Syria and Iran. The passage of Resolution 1680, 
even with Russia's and China's abstention, sends a strong message to 
those countries that their continued attempts to coerce and undermine 
Lebanon's independence and democratic aspirations will not be tolerated 
by the international community.
    It is important to keep the pressure on Syria, as we remain deeply 
concerned that the Syrian regime, despite the military withdrawal, 
continues to manipulate and coerce Lebanon in direct contravention of 
Resolution 1559. As President Bush recently noted, it is time for Syria 
to ``stop exporting violence and start importing democracy.''
    Resolution 1680 also takes special note not just of Syria, but of 
Iran as well. For the first time ever, the Secretary General issued a 
report recently singling out Iran's disruptive and unhelpful role in 
Lebanon. Iran's financing and support of well-known terrorist groups 
like Hezbollah, Hamas, and Palestinian Islamic Jihad is a very serious 
matter and a direct impediment to achieving a sovereign and democratic 
Lebanon.
    While Resolution 1680 builds upon Resolution 1559 in dealing with 
the question of Lebanon's security more generally, we continue to push 
for Syria's full cooperation on the investigation into the 
assassination of Lebanese Prime Minister, Rafiq Hariri, as called for 
in Resolution 1595 and 1636. Resolution 1636 was also passed--adopted 
under the authority of chapter 7 last October--noting that Syria's 
continued lack of cooperation would constitute a serious violation of 
its obligations under the relevant resolutions. We continue to support 
Commissioner Serge Brammertz' ongoing investigation into this terrorist 
act, and will support an extension of the U.N. International 
Independent Investigation Commission when its mandate expires in mid-
June.
    It was just over 1 year ago that, what has now been termed the 
``Cedar Revolution,'' was launched by the people of Lebanon. The United 
States stands firmly with the people of Lebanon who are working to help 
debunk the myth that people in the Middle East do not want democracy.
Burma
    While Burma is not yet on the Security Council's formal agenda, I 
want to assure you that we will be looking forward to Under Secretary 
General Gambari's briefing later this week on his meetings in Burma. We 
will be working closely with our colleagues in the Security Council to 
find a way to back up Under Secretary General Gambari's efforts to 
press for the release of political detainees, including Aung San Suu 
Kyi. And, we intend to promote an inclusive and genuine political 
dialog in Burma that empowers Burma's people to decide their own 
future.

                               CONCLUSION

    Mr. Chairman, it has been a pleasure to meet with you today to tell 
you what is happening up in Turtle Bay, despite the fact that news is 
not terribly encouraging. There are many other issues I could discuss, 
but I know that you and your colleagues will have questions. Let me 
close by saying that I have enjoyed the close working relationship I 
have had with this committee since arriving in New York last August. I 
greatly enjoyed your visit with several of your colleagues to the 
Security Council during our presidency last February, and know that 
door remains open to any committee member or member of their staff.

    The Chairman. Well, thank you very much for your opening 
testimony, and I suspect our questions will bring forward a 
number of additional issues and comments.
    We will have a 10-minute round of questions. To begin with, 
I will start by just raising the dynamics of the reform 
process, at least as I perceive it. It is often suggested--and 
I appreciate your comment and analysis--that the United States 
issues with regard to reform are well-known. Indeed, the 
President, in nominating you to be our Ambassador, pointed out 
that he was nominating you because you would be a very strong 
agent of reform and that that was certainly the intent of our 
Government and his Presidency, as a friend of the United 
Nations, as one who believes in that institution very deeply.
    What some have suggested, outside of the United States, is 
that a good number of countries believe that when the Secretary 
General came forward with some of his reform ideas, that these 
were at the behest and call of the United States, that he had 
become an instrument of our policy, and that this acrimony led 
to this unusual vote of 108 to 50, that is different from the 
past. At least it is my understanding that, essentially, budget 
items were dealt with you by consensus. Perhaps they were dealt 
with by consensus because the United States sensed that in the 
event things ever came to votes ad seriatim on budgets, we 
would be outvoted for the reasons that you analyzed, namely 
that there are two-thirds of the countries of the world, maybe, 
that are paying 12 percent or less of the budget and relatively 
few countries that are picking up the bulk of the tab. The 
authority for the two-thirds comes from the fact that they have 
got one vote each. That is the nature of the organization. So 
that once we got into a voting contest here, this was something 
that we are unlikely to win.
    You make a good point that we did have a showing of 50, 
including most of our European friends and other people who are 
responsible for much of the budget. But this does raise the 
question, where do we go from here? At what point does the 
body, as a whole, appreciate that we are pushing for reforms, 
not in the sense of attempting to diminish our support, which 
remains the most generous, or that of our cohorts in the 50 
states, but because the place needs to be run better? 
Suggestions that have been made by you, by some of us, by the 
Secretary General, need to be taken seriously.
    I just want your comment on the dynamics of this particular 
predicament, because I think it is extremely serious. If one 
issue after another comes to this sort of vote and the division 
is this way, reform is not going to occur very rapidly. As a 
matter of fact, demagogues can still take hold and things could 
move the other way.
    So give us some lay of the land, as somebody who is on the 
ground there now.
    Ambassador Bolton. Well, Mr. Chairman, your prognosis is 
pretty gloomy, and I have to say I share the prognosis. The 
notion that somehow the Secretary General's reforms were done 
at our behest and not with what I think is, in his view, the 
best interests of the organization part, it is hard to describe 
how anybody can come to that conclusion. The Secretary General 
has spent most of his professional career in the U.N. system. 
He knows it as well as anybody. So when he says, looking at, 
coming particularly near the end of his 10-year tenure as 
Secretary General--this is somebody who speaks, I think, with 
as much authority as we are going to get on the need for 
internal reform.
    The idea that these reforms somehow benefit the United 
States, the West or the North, if you view this as a North-
South conflict, to the detriment of the other states, is just 
fundamentally wrong. The approach I think that most of us take 
as we look at the United Nations is a potential solver of 
international problems and we are more likely to turn to it if 
we think it is efficient and effective, well-run, and cost-
effective.
    One of the ironies of the reform process is that some of 
the countries that are most critical of the United States for 
not using the United Nations more often, are among the 
countries leading the opposition to the reform.
    So I think we have tried, we are going to continue to try 
because we believe it strongly, to urge that the reforms are 
not in the interest of the United States alone or even of all 
of the major contributors; they are in the interest of the 
organization. That is what the Secretary General, himself, has 
said and that is the line we are going to push.
    I do think that this junction between contributions--
assessed contributions--and voting power is something this body 
has turned to many times in the past, going back to the mid-
1980s when the first withholdings were undertaken, and a number 
of discussions were had here about that subject. I did some 
calculations last night, and I did these myself so if my math 
is wrong, blame me, don't blame anybody else. But there are 191 
members of the General Assembly, which means 96 is a majority. 
I calculated, starting with the lowest assessment, which is 
0.001 percent of the total budget, and I added up until I got 
to 96. Actually I got to 97 because of a tie in the last one. 
The lowest assessed--the 97 lowest assessed contributors 
contribute 0.289 percent of the total budget. We contribute 22 
percent.
    When you compare the lowest, 48 countries contribute 0.001 
percent. That means we contribute 22,000 times more than the 
lowest contributor. And yet we all have the same vote. We 
contribute--in 2005 our assessment was $423 million. For those 
48 countries contributing .001 percent, their contribution was 
$17,000.
    Now, that is not to say that we do not believe in the 
principle of sovereign equality in the United Nations. We do. 
But it is significant that on these questions the distribution 
of the vote is the way it is. It is why we have worked very 
hard to stay close to the European Union. It may be I have been 
in New York a little too long. When I looked at the 50 votes I 
thought, well, that is not bad, actually we had the European 
Union with us and countries as diverse as Turkey and South 
Korea and the CANZ countries and so on.
    We need to do more and I can promise the committee we are 
going to do more to reach out to the moderates and the G-77 to 
try and convince them of the importance of the reform effort. 
We do not want to make this into a North-South confrontation. 
We have not sought that. We do not seek it. We want to try and 
build a broader coalition for reform and that work is under 
way.
    The Chairman. I appreciate that final comment about our 
action steps. Just for the moment, we have to hope that maybe 
our own diplomacy--and you are on the point of this--is more 
effective than those countries that may not have much of a 
financial stake in the situation, but may have one vote in 
this, as we try to bring some understanding that this does not 
allow endless patronage of all sorts of supernumerary people 
who are not going to perform or 9,000 mandates from the past in 
which some country may have a feeling that for life eternal 
that ought remain on the books, whatever may be the 
inefficiencies of the organization.
    I think this is pretty fundamental. We have argued a great 
deal about the Human Rights Commission and that is high 
profile, and yet just the fundamental organizational structure 
situation may make reform impossible unless there is some 
consensus that it ought to happen with a very broad group of 
nations. That is apparent to you, but I think this hearing just 
underlines that this is a very serious predicament of 
governance and of outlook really for the future.
    I have one further question, and it is a judgment call. 
Some of us felt that perhaps we ought to be a candidate for 
this new Human Rights Council. It was the final decision of the 
administration that we would not be, and to suggest that 
perhaps, because we are not, our advice coming in is more 
effectual than if we had been there. That remains to be seen.
    I want just again for you to review why we are not a 
Council member now and once again to assert your confidence 
that this off-the-council business is going to lead to more 
reform than our sitting around the table.
    Ambassador Bolton. Well, the decision not to seek a seat on 
the Council this year was not an easy one to make. It was a 
judgment call. In fact, it is based on predictions about the 
future of the Council. We could speculate about them for some 
length of time. I think now we will see how the Council 
actually operates and how that goes.
    But a couple points that factored into the decision. First, 
because this is the beginning of the new Council, there will be 
staggered terms for the initial 57 members. They drew lots. 
Some will have a 1-year term, some will have a 2-year term, 
some will have a 3-year term. Of course, it was entirely 
possible we could have gotten elected but then only drawn a 1-
year term, which would have meant that we would have had to 
have stood again the next year. We thought it better to wait 
until we could run for what would clearly be a 3-year term when 
that comes up.
    Second, we did decide to vote against the resolution that 
created the Council. That was another difficult decision that 
we thought about long and hard before the decision was made. 
But we recognize that some were unhappy about that and we 
thought, rather than have that be a factor in the election, 
that we sit it out for the 1 year and then see how the Council 
performed.
    But I can tell you from the discussions I have had in New 
York and from the excellent reporting that is coming from our 
colleagues at our mission in Geneva that they are very, very 
actively involved in the preparatory work. The other countries, 
I think, recognize the important contribution that the United 
States makes in human rights work within the U.N. system and I 
think we are participating fully and actively, and that is 
certainly Secretary Rice's direction.
    The Chairman. Thank you very much.
    Senator Hagel.

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you.
    Mr. Bolton, welcome. I thank you and your colleagues for 
your efforts and good work. I would like to continue to pursue 
this same line of questioning that the chairman has presented. 
I want to go back to some comments that you made and, as I have 
read your testimony, you go into more elaboration, 
specifically, what happens when the United Nations runs out of 
money. As you note here in your testimony, the interim budget 
will run out of money in early July, and you responded, I 
think, by noting that there is some possibility that we would 
agree to extend it for 90 days, from June 30 to September 30, 
and so on.
    In light of all that you were dealing with and all the 
issues that you have presented this morning and others that you 
have not talked about, not included in your testimony, some of 
the things that the chairman has talked about, I would be 
interested in getting an assessment from you on what is going 
to be our strategy--the U.S. strategy--as we reengage in June 
in the General Assembly. Are we going to be doing something 
different; better? At least my reading of your assessment 
presented, I think, an honest assessment. It is not 
particularly encouraging. Are we doing something different? Are 
we going to try to move some of these nations more to our side?
    To be quite frank, I have heard from a number of U.N. 
sources, many of our friends and allies, that we have a number 
of countries alienated because they feel that we have changed 
objectives, we have moved the goalposts, whether it is budgets 
or whatever else it is.
    I do not dispute the Volcker report; his analysis. I think 
anyone who has had any sense of that organization where you 
represent our interests knows that it is in deep trouble. At a 
time when the world is very dangerously complicated, that 
organization, it seems to me, is going to continue to be very 
important, not just for our interests but for the interests of 
the world.
    So are we going to do anything different? How are we going 
to bring more of these countries alongside our focus, our 
objectives? How are we going to further develop a consensus of 
purpose in our leadership of the United Nations?
    Ambassador Bolton. Well, I think this is obviously a very 
important question, not just in the next 30 days--30 or 40 
days--
although that would be important to be sure, but over the 
longer term. Because to achieve the objective of the lasting 
revolution of reform, which is what Secretary Rice has directed 
us to do, I think we need to overcome that culture of inaction 
that Chairman Volcker talked about.
    One of the things that we would like to do in addition to 
going through the 9,000 mandates is set up some procedure so 
that over a regular period of time, let us say 5 years, there 
would be a consistent review of mandates on a prearranged 
basis, so that we do not have to, once every 60 years, stop and 
try and review all the mandates at once, but that we are 
reviewing targets and aspirations and performance on a 
recurring basis and make decisions in a more orderly fashion.
    I think that there are a number of countries, in the G-77 
in particular, that view this process in a way as trying to 
take authority away from the General Assembly and put it in the 
Secretary General. They regard that as an attack on their 
sovereignty in many respects.
    We have tried to explain that that is the farthest thing 
from our mind. It is certainly not the United States that is 
going to the General Assembly to say we want to reduce the 
authority of member states in the General Assembly, to 
strengthen the hand of the Secretary General. That is not our 
objective.
    What we would like to do is to make sure in management 
terms the Secretary General has the flexibility that managers 
in many other large organizations have in terms of moving 
personnel and resources among the priorities that they do. But 
we have nothing but the firmest intention to make sure that it 
is ultimately the member governments of the General Assembly 
that direct the priorities of the Secretariat. We are not 
saying they should have more autonomy from the members, to be 
sure. So there is, I think, a misunderstanding in a way. 
Perhaps this is in the way this debate has been cast over the 
past couple of years that needs to be corrected. I think that 
is one broad point.
    Point two, the policy argument needs to be made more 
effectively that rendering the United Nations more efficient, 
more transparent, better managed, makes it a more attractive 
vehicle for the United States and other countries to choose the 
United Nations to solve problems. When the difficulties of the 
Oil-for-Food Program became manifest, the former Deputy 
Secretary General of the United Nations, Louise Frachette, 
said: ``I do not want, ever, to have another Oil-for-Food 
Program at the United Nations.'' We fundamentally disagree with 
that. We may need to all on the United Nations to undertake 
another major program, perhaps not the same as Oil for Food, 
but involving high stakes and high resources.
    What we would like to be in a position to do if that arises 
is have confidence that such a program, such an endeavor, would 
be well managed and not driven by corruption, so that the 
substantive case we have to make is that, in fact, these 
management reforms do strengthen the United Nations, do make it 
more attractive, and are, therefore, in the best interest of 
the organization.
    Third, and then this would be my last point, I think that 
we would be enhancing our diplomatic efforts in this next 
stage. The staff of the mission in New York is working 24/7 on 
this now, but we will be doing more in the capitals, having our 
embassies there enlarged. We will be doing more in Washington. 
Certainly a lot was done on these fronts before, but I think we 
are going to step up that level of activity. By forming the 
JUSKCANZ group, I think that has given us a very, very 
effective way of multiplying our diplomatic efforts.
    We are in close touch with the European Union. We have met 
with them already this past week. We will be meeting with them 
again today up in New York. We have got other meetings planned 
next week. They have got their own internal decisionmaking 
process, as you know. But we are determined to stick very 
closely with them. And then we are going to have a concerted 
effort to reach out inside the G-77 to explain what we think 
are the merits of the reform proposals and hope that we are 
persuasive.
    Senator Hagel [presiding]. The last, No. 3 part of your 
answer, really addressed my question. As you say, you are 
enhancing diplomatic efforts, and you noted a couple specific 
areas. I would take, then, that that is part of the answer to 
my question, what are we doing differently to, as you use the 
term, enhance our diplomatic position to bring these countries 
closer to our focus.
    Let me go to Iran for a moment. February 4 of this year, as 
we know, the IAEA voted 27 to 3 to refer Iran to the Security 
Council. I am going to ask you this question, Ambassador 
Bolton. Obviously, what is the status? Are we gaining ground; 
losing ground?
    I have been one who has strongly advocated for some time 
that the United States needs to engage Iran. I do not believe 
that we will get to the core of the larger dynamic framework of 
differences until we do that. I met yesterday with the German 
Ambassador to Iran for some time and others. But I know that is 
not the position of this administration.
    But tell me how we are winning at the United Nations? We 
have in the Security Council two members who, unless there has 
been a breakthrough in the last 24 hours, continue to refuse to 
take our position on this. I do not think things are getting 
better in the Middle East. I think things are getting worse in 
the Middle East. Iran is at the core of this. Give me some good 
news or explain to me why my assessment is wrong?
    But in particular, as you are doing that, how are we 
gaining ground in the United Nations regarding Iran?
    Ambassador Bolton. Senator, I have to say, at this very 
moment, we are kind of in medias res in a number of activities. 
Yesterday in London there was a meeting of the political 
directors of the Perm 5 plus Germany in an effort to help 
delineate the package of incentives and disincentives that we 
want to present to Iran, a package that will show them on the 
one hand the incentive side, the prospects that are open to 
them if they seriously commit to suspend their uranium 
enrichment and plutonium reprocessing activities. This will be 
in many respects an elaboration of what the EU3--Britain, 
France, and Germany--have said to them before, as well as I 
think combined with the various Russian offers to guarantee 
fuel supplies and so on that have been made in the past.
    On the other hand, a package of disincentives to show 
clearly to the Iranians if they choose not to suspend their 
progress toward acquiring a nuclear weapons capability what 
that option would be for them as well.
    At this point, I think it would not be right for me to get 
into too much of the specifics. I think Secretary Rice deserves 
a chance to assess the situation. I am sure she is going to be 
consulting with her counterparts in the trying to determine a 
way ahead. We will be--as soon as I am released from the 
committee, I will be returning to New York to start working 
again on the chapter 7 resolution that we had under discussion, 
because that track needs to move forward as well.
    I think, as we announced yesterday, there was good progress 
in the discussions in London. But we really are in the middle 
of this effort that began with Secretary Rice's meeting with 
the other Perm 5 Foreign Ministers in New York about 2 weeks 
ago, setting in motion this process that is now under way. But 
it certainly could not be any higher on the priority list to 
try and get this resolved, and that is a subject of continuing 
conversations at the very highest levels.
    Senator Hagel. Thank you.
    My time is up. I guess it is just you and me, Joe. Senator 
Joe Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Ambassador, welcome. I apologize for 
being late. There is a vote on, so I will probably only get in 
one question.
    First of all, I want to compliment you on your efforts on 
Darfur. At some later time, maybe we can have a longer 
discussion about what you see the prospects are for us. I know 
we are talking about a force in the fall. I would like to talk 
with you about that. We really have moved the ball, but absent 
boots on the ground I am not sure what is going to happen.
    I was confused about our position on the Human Rights 
Council. You have accurately pointed out what a mockery it has 
been on occasion in the past with respect to those who have 
been elected to lead the Commission. But when we bowed out of 
the race for a seat you said, ``I think, and I believe this 
rather strongly, that our leverage in terms of performance of 
the new Council is greater by the United States not running.'' 
Then after that, upon creation of the Council, the 
administration issued a statement that said, ``With a strong 
collective effort to make the new Council effective, the United 
States will likely run for the Council next year.''
    This may, or may not, have confused you, but I am confused.
    Ambassador Bolton. Well, I think the two statements are 
consistent because what we were saying was that we felt in this 
first election that it was the best judgment that we should not 
be a candidate, given the circumstances leading up to the 
creation of the Council. And also the reason I think--I do not 
recall if I mentioned that because this new Council is just 
beginning there will be staggered terms for the members. They 
drew lots to see who would have a 1-year term, who would have a 
2-year term, who would have a 3-year term. So there was a 
prospect, since it was random selection, that if we had run we 
would only have a 1-year term and we would need to run again 
next year, whereas if we run next year we would run for a full 
3-year term.
    And it was a judgment call. It was an equity call on both 
sides of the question, whether to run, whether not to run, and 
they were debated and the judgment was made not to. I think 
what we can see already in Geneva as the preparatory work for 
the opening of the new Council has begun is we are fully 
participating and our status as a member or not a member of the 
Council really makes no difference, diplomatically, at this 
point.
    Senator Biden. Did you indicate that you thought that the 
Perm 5 should be permanent members of this Council?
    Ambassador Bolton. The question came up in the context of 
what we call the Perm 5 convention, which is that, 
traditionally going back to early in the founding of the 
organization, that the Perm 5 members had served traditionally 
on basically all of the governing bodies that they sought to, 
and in exchange for that they were never chairman of those 
governing bodies. That was something the five permanent members 
never ran for.
    The fact is that, other than the case of the Republic of 
China, the People's Republic of China, because of that anomaly 
back in the 1950s and 1960s, the only Perm 5 member ever to 
have been defeated for a seat on the Human Rights Council was 
the United States. So when I was asked about the Perm 5 
convention I did talk about that, because at that point--this 
was before the new Council had been created--I was trying to 
make it clear that I thought the United States could play an 
effective role on the new Council if it was set up in the right 
way.
    Senator Biden. Would you view having Russia and China on 
the Council today, as a positive step?
    Ambassador Bolton. I think, given their human rights 
records, the answer to that is that they are likely to 
contribute to the same pattern of behavior as on the former 
Commission, which is not a good sign. But I would note they got 
elected.
    Senator Biden. With regard to the issue of our dues and 
reforms, I listened closely to your answer to Senator Hagel, 
but I am still a little confused. Have we made clear exactly 
what reforms we are looking for, or is it that we will go back 
and look at every single aspect of the list of reforms before 
we pay our dues? In other words, do we have a checklist for any 
of the G-77 to look at and say, OK, I know this is what has to 
happen to get the United States in the deal?
    That is a criticism I have heard: That even those who may, 
or may not, be prepared to engage in reform do not know, 
specifically, what reforms we are looking for.
    Ambassador Bolton. Well, the JUSKCANZ countries have put 
together a list of 20-some mandates that we view as a high 
priority to be reviewed between now and June 30, and we have 
distributed that. I think people are aware of those priorities. 
We have been trying, because we do not want to precipitate a 
crisis ourselves, we have been trying to avoid a circumstance 
where we are perceived as having drawn a line in the sand.
    What we have tried to say is there are various combinations 
of things that can happen, there are some politically very 
sensitive mandates that do not cost a lot of money, but if 
those mandates were eliminated I would feel myself in the 
position to say that is real progress even though there are not 
hardly any cost savings involved at all.
    On the other hand, those may be too difficult to do, but 
there may be some other mandates that would involve some cost 
savings. But please, I want to be clear. It has never been our 
position that all of this had to be done by June 30.
    Senator Biden. To state the obvious, I am not looking for 
another crisis. With all that is going on, I am not looking for 
another crisis on June 30 in terms of again going through 
whether or not we are going to support the budget, pay our 
dues, et cetera.
    Your recent statement in the House struck me. You said that 
one of the reasons the G-77 members were opposed to a reform 
agenda is that they are concerned ``because the exact 
dimensions of our reform efforts are not entirely clear.'' That 
was your statement. Now, it may have been taken out of context 
but I do not think so.
    So I would hope that you would let the committee know the 
combination of things that have to happen, the bottom line, so 
that we do not go through this process again, the 
brinksmanship, which I think is not good.
    Ambassador Bolton. I would be happy to supply the JUSKCANZ 
list on mandates.
    Senator Biden. Is that our list?
    Ambassador Bolton. Yes, it is an agreed upon list. That is 
why we tried to do it through the JUSKCANZ mechanism.
    Senator Biden. I got that. So those are all those things 
required to happen in order for you to----
    Ambassador Bolton. They would not all be required. This is 
another point, that I do think it is important that, because we 
are not going to finish everything by June 30, that we have an 
agreed-upon roadmap, perhaps through the end of this year, of 
how to have a systematic review of the other mandates that we 
are, obviously, not going to cover.
    It is also why we have suggested, in New York, taking what 
would basically be the June 30 date for the expenditure cap to 
kick into place and just putting it off for 90 days, not asking 
for anything, just saying we are prepared to add in another, it 
would be another $425 million of spending authority. That would 
take us to September 30, give us another 90 days to get some 
more mandates reviewed and decided upon, give us all 90 more 
days to try and work this out, to avoid the crisis.
    We have suggested that in New York and so far it has not 
met with a lot of support. But it is an indication, I would 
suggest, that we are not trying to force this to an issue on 
the 30th. We are prepared to give ourselves another 90 days, 
even without any evidence I could give to you today of 
progress, but just give us a little bit more time to see if we 
can work it out.
    Senator Biden [presiding]. Well, the time has run out on 
the vote. I have to go. We are going to recess until the 
chairman comes back. Thank you.
    [Recess]
    The Chairman [presiding]. The committee is called to order 
again. We thank our witness for his patience in the midst of 
our winding up the debate on the floor. We are likely to be 
called, we are advised, for one vote.
    Ambassador Bolton. I did not see you were changing lines, 
Mr. Chairman.
    The Chairman. We are attempting to do our duty.
    I am going to call now on Senator Coleman for his 
questions.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. I want to start 
by just commending the Ambassador for the work that he is doing 
under difficult circumstances.
    At the end he talked about reaching out and building a 
broader coalition. Certainly that needs to be done. I do want 
to state, Mr. Chairman, just for the record, the Ambassador is 
still--though he is the Permanent Representative, it is an 
interim appointment, and I think we have to acknowledge that, 
recognize that.
    These are very critical times at the United Nations, very 
critical. In dealing with the situation with Iran and the 
prospect of getting a nuclear weapon, time is of the essence. I 
find it very disconcerting that, unless his appointment is--if 
there is confirmation, for the remainder of this President's 
term, unless we have that continuity, I worry that our ability 
to effectively deal with some very difficult, very challenging, 
and very important issues at the United Nations is going to be 
compromised.
    So Mr. Chairman, I just would urge the committee to try to 
move this nomination forward again, to put aside any personal 
partisan differences. Right now we need continuity at the 
United Nations. I think it is fair to say, I would hope my 
colleagues say, that the work of the Ambassador has been 
commendable and he has used the diplomatic skills that he has 
honed over many, many years in this business. So I wanted to 
make that note for the record.
    I have grave concerns about next January and February, 
dealing with the prospect of Iranian nuclear weapons and who is 
going to be representing us at the United Nations. We better 
have a person there who has that kind of credibility.
    Now that my colleague from Ohio is here, I may repeat my 
comments for his benefit, the importance of this position, and 
having continuity between now and the end of this President's 
term I think is critical for this country. So I hope that we 
reconsider this nomination and that we can confirm it and have 
that representation that we need.
    Ambassador, you raise--actually, let me just move to a 
quick observation. The chairman talked about the hope of a 
positive force at the United Nations and I share that hope. The 
chairman talked about concerns about the credibility of the 
United Nations in light of the Oil-for-Food and of the Volcker 
Commission and I share those concerns. The question is what do 
we do about that. We have got a Human Rights Council now that--
and I appreciate the fact that we are working with it, but we 
have got China, Cuba, Russia, Saudi Arabia among its members.
    You have a structural infirmity challenge in that the WEAD 
groups, the Western groups, the democracy groups, they are 
smaller now. They have less impact, not a majority. So even 
from a structural, a structural perspective, whatever our voice 
is, it is harder to have any guarantee of assurance that that 
voice is going to be heard and be able to take the kind of 
action it needs to take when groups least committed to 
democracy and human rights now run the show in this newly 
revised, reformed Human Rights Council.
    So I find that challenging. But I guess the $64,000 
question, Mr. Ambassador, you talked about the numbers, 50 
nations that put in 87 percent of the dues and they can kind of 
raise their voice as loud as they want, but they are 50 
nations. You have got 50 nations that put in less than point-
something percent of dues on an equal plane. So those folks 
that do not have, as we would say, skin in the game for any 
kind of change--certainly you cannot, by numbers alone, we 
cannot make any change.
    So you have what I see as kind of fundamental structural 
challenges. My question is, Do those challenges make reform 
impossible or, even with that structural? Is there any kind of 
optimism that we can have about reform in the United Nations, 
particularly based on the action we have seen over the last 
couple weeks when you have this kind of structural imbalance 
that makes reform difficult, if not impossible?
    Ambassador Bolton. Well, I think this junction between 
voting power and assessed contributions is a real issue. I do 
not think you can blink it away. I do not think that it is, 
perhaps, as fully recognized, the impact that it has. I do not 
think, though, that we can say it makes reform impossible. I 
think that is really what lies behind the effort that the 
President and the Secretary are making to do all that we can to 
convince people that these reforms truly are in the interest of 
the organization and they are not some Western imperialist 
design to take it over from behind the scenes.
    That is why I have tried, on this idea that the reforms are 
a way to shift authority from the General Assembly to the 
Secretariat, to say, do you really think the Bush 
administration wants to reduce the sovereign authority of 
members of the United Nations, to strengthen the Secretary 
General? That is not the hidden game here.
    But we, obviously, have to do more. We are looking at 
different ways of lobbying within the G-77, but it is a 
phenomenon that I think most of my colleagues in New York would 
say that the G-77 is often dominated--remember, it has 132 
members, it is not just 77 any more. It is often dominated by 
the most forceful, the most determined, who in the closed 
meetings of the G-77 get the other members spun up to a point 
where it is hard for them to back away.
    I will tell you, their whip organization is pretty good and 
that, breaking through that, is just something we are going to 
have to work a lot harder.
    Senator Coleman. Look at the situation we face now. At the 
end of June--you were successful in, of course, stalling 
passing a biennial budget. So we do that to the end of June. 
Now we are at the end of June and reform has not taken place. 
The moderate reforms the Secretary General proposed have been 
essentially rejected by the G-77. So we are sitting there right 
now, we have pushed it off to then.
    You come before us and say, we are willing to push this 
back 90 days with no strings attached. We are not asking for 
anything. But there is not an incentive for the G-77 to want to 
push it back. So we are coming in the next month to some kind 
of loggerheads.
    Can you lay out the--tell us what our options are? Tell us 
what our choices are? As I say that, let me just kind of add to 
that that we have choices here, too; that we fund 22 percent of 
the operating budget, but I think we fund, what, 26 percent of 
the peacekeeping budget?
    Ambassador Bolton. 27.
    Senator Coleman. We fund the voluntary budget, and we are 
not talking about $430 million, we are talking over $3 billion 
of U.S. taxpayer money that goes to the United Nations. The 
sense I have among my colleagues is we really want to see 
reform. We are not going to continue throwing money at an 
organization if, in fact, it is not credible, it is not 
transparent, it has not dealt with the corruption.
    So we are going to have to make some choices, and I would 
hope that the member nations understand that. So my question 
is, At the end of June if reform is not happening--which I 
think is a fair assessment--what are our options; options A, B, 
and C, best case, worst case scenarios?
    Ambassador Bolton. Using June 30 as the cutoff date, I 
think the worst option is that the G-77 comes in, let us say, 
in the next week and adopts a resolution that says the spending 
cap is hereby lifted, period. If they force that to a vote they 
will likely win, along the same lines of the vote that we saw 
on the Fifth Committee, in which case the expenditure cap will 
be gone and what incentive there is for reform other than 
argument on the merits will have disappeared.
    Our hope is, the other extreme from that, if you will, is 
that between now and June 30 we can achieve some substantial 
reform, especially on the mandate review. The way the G-77 has 
cut down the Secretary General's reforms on management I think 
makes it harder to score successes there, although we are still 
going to press for it. But if we could have some tangible 
successes in the area of the mandate review, I think at that 
point we would be prepared to say, let us lift the expenditure 
cap, assuming we have a roadmap ahead of how to complete the 
mandate review of these 9,000 mandates over a defined period of 
time. If we could have that, I think that would be the road 
ahead.
    I would just say, my guess is, knowing the way the United 
Nations works, even though today is May 25 and we do not have 
any reform in the mandate review area yet, I would not 
necessarily take that as fatal, because I think a lot of this 
is going to occur at about 10 of midnight on June 30 when the 
deals get cut.
    Senator Coleman. I would say, Mr. Ambassador, that it could 
well be fatal. It could well be fatal if reform does not move 
forward. The quote from the British Ambassador, Jones Barring, 
when he reacted to the G-77 strategy, the blocking strategy, 
this is a quote: ``We should realize we pay 80 percent of the 
budget. We are not going to have this sort of imposition on us 
by the draconian tactics of the G-77 at this moment. If they 
want to play with fire they are going to get their fingers 
burned.''
    Ambassador Bolton. That was not me, Senator.
    Senator Coleman. That was the critics. That was not John 
Bolton, Ambassador Bolton, saying that. That was the critics 
saying that.
    I suspect the Japanese are being very frustrated, very 
frustrated. They make a significant contribution. So in the end 
reform really is essential for those of us who believe in 
working with the United Nations and a strong United Nations, a 
credible United Nations. I just hope that message is 
communicated back to member nations.
    Ambassador Bolton. That is why I thought it was important 
that, as it turns out, the Senators who are present here today 
came up to New York. I hope others can come up as well, because 
it is important to convey to them. We try and do it, but really 
when members of the House and Senate come up it conveys it even 
more strongly how broad the support for significant reform at 
the United Nations is.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    Senator Voinovich.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. Ambassador Bolton, I would like to say 
that your words today have been very conciliatory. I think that 
you are suggesting that you extend the cap or the decision on 
the budget to December 30 is a good move. I think that when the 
human rights issue came up that we voted ``No,'' but we made it 
very clear that we are going to continue to participate in it. 
I was delighted to hear that you seemed to think we have been 
making some progress there and you think maybe being on the 
outside is better than being on the inside.
    Ambassador Bolton. It sounds counterintuitive, but I think 
it is going to play out correctly.
    Senator Voinovich. Well, that is wonderful.
    The other thing is I am very impressed with your JUSKCANZ 
group. I think that the important thing at this stage of the 
game is to keep everybody on board, and the fact that you had 
50 votes is significant. Eighty-seven percent of the budget was 
represented by those 50 votes. I believe that we need to 
continue to push diplomacy, and I really believe that the 
reforms that we need have to get done this year. Kofi Annan is 
going to be leaving. The United Nations is going to have a new 
person on board, and I just wonder what is going to happen in 
the interim period. We have this wonderful window of 
opportunity to take advantage of this and I would be interested 
in what your perspective is and what happens when we have a new 
Secretary General.
    The second issue is, if you recall--and I enjoyed visiting 
with you and some of the organizations--when we met with the G-
77 group I made it very clear to them that they need to 
participate in this reform. The fact of the matter is that 
those countries who are picking up the tab want a successful, 
effective United Nations, and without the reform it is not 
going to happen.
    The United Nations should understand that there is a 
certain amount of patience that we have, and then we run out of 
patience. One of the thoughts that I had--in fact we contacted 
the Japanese Embassy--was that perhaps we ought to get 
resolutions from the Parliaments of the various countries that 
are anteing up. Basically to state that we want to see progress 
made, that we are the ones that come up with the money, we have 
other alternatives for the use of that money, we believe in 
this organization, and to get them to understand that this is 
very serious business. This is not the United States out there 
solo, but it is a unified approach.
    I think that one of the countries that should be really 
upset is Japan. Japan comes up with 19.4 percent of the dues 
and they cannot get on the Security Council. I am sure that 
their Parliament is very frustrated with this. The Brits are 
also frustrated. My suggestion is that you stay with the team 
and see if we cannot generate more effort by Parliaments with 
understandable language where we show that we are the ones that 
come up with the money and we have patience. However, we want 
to see the United Nations come forward and support the reform 
that is necessary to make this into the organization that we 
all want it to be.
    The first question is, Do you think this is the time? You 
seem to say, let us get the mandates taken care of, and that 
may be the most pressing issue, and then the reforms can 
continue. The other issue is, we met with Mr. Burnham, 
Christian Burnham. As you know, he is undertaking some new 
accounting and so on and so forth. I would like to know what 
this vote on reforms has to do with what Mr. Burnham is trying 
to do in terms of his job.
    Ambassador Bolton. Senator, I think your assessment is 
essentially the same as ours. On your first question about the 
new Secretary General, this is something that is probably the 
single most important decision we are going to make in New York 
this year. It has been a high priority of ours for some time. 
The first action, of course, is in the Security Council. We 
have been meeting among the five permanent members. There will 
actually be a meeting, that I will miss today, of all 15 
members to talk informally about this process.
    It is a critical point because we want to take advantage of 
the last 7 or so months of Secretary General Annan's term. He 
has demonstrated through his report, ``Investing in the United 
Nations,'' his desire for management reform. He supported the 
expenditure cap. He and Mark Mollock Brown, now the Deputy 
Secretary General, were involved in the negotiations in 
December to give us the impetus to have these reforms.
    So his departure, in a sense, brings in a new person who, 
almost by definition, will not be as deeply involved. But it is 
on our minds and I think it is on the minds of all countries 
committed deeply to reform that we want the new Secretary 
General to come in understanding that this has to be a priority 
for him or her and that the continued work--after all, the 
Charter calls the Secretary General the Chief Administrative 
Officer of the organization--is going to be extremely 
important.
    So as we talk to candidates for Secretary General this is 
something that we always stress with them at all the different 
levels. The selection procedure for the Secretary General is 
not exactly the most transparent or understandable election 
procedure in the world, but we know who is interested in it and 
we are talking to them about it because we do think it is 
important.
    The second point: The stress I have laid here today on 
mandate review is because the mandates are the programs, the 
activities, that the United Nations and its funds and programs 
and activities carry out. This really is, I think, what we look 
for the United Nations to do. We can all measure inputs to the 
United Nations. We contribute $423 million a year to the United 
Nations. What we do not measure so well are the outputs, what 
exactly is it that we get from this program, or that office or 
that fund?
    The mandate review gives us an opportunity to step back and 
look at the performance metrics comprehensively. As I say, we 
do not expect we are going to finish this budget June 30. That 
has never been our expectation. But we do want an agreed-upon 
road ahead for the systematic careful consideration of the 
mandates and then, as part of Secretary Rice's lasting 
revolution, a process whereby mandates will be reviewed 
regularly over a systematic period of time.
    Senator Voinovich. I get the impression that it is your 
opinion that the mandates are moving along. You feel good about 
the progress that you are making on the mandates, as contrasted 
to the fact that we lost the reform vote.
    Ambassador Bolton. Well, I am pleased that we have been 
reviewing them, systematically, in the General Assembly and we 
will be doing that in the Security Council as well. What we 
have not yet done is made any decisions on consolidating 
mandates, eliminating mandates, and that sort of thing. We have 
still got some pretty fundamental decisions.
    If I could just take one second on one of the hardest ones. 
When the heads of state called for the mandate review in the 
outcome document in September, they said, we want to review all 
mandates older than 5 years, so in other words any things that 
have been in existence for a relatively long period of time. 
The G-77 has taken the position that even if a mandate were 
first put into place 20 years ago, if it was then renewed every 
year since then, so last year, the year before, it is not older 
than 5 years.
    If that position prevails, we will review a total of 7 
percent of the mandates, because most of them are reviewed 
every year. It's an impossible position to justify, but that is 
the kind of difficulty we went into.
    Senator Voinovich. The question I have is this. If that is 
such a key issue, how quickly can we get it resolved in terms 
of, if that does not work then forget it?
    Ambassador Bolton. Right, I agree with that. That is one 
reason why I do not have a lot of confidence we will get some 
of these issues resolved by June 30, and in order to give us 
more time and not provoke a crisis in the next 35 days we have 
been offering up this 90-day extension. As Senator Coleman 
said, it has not attracted a lot of support because I think 
some countries who do not support the reform process think they 
might as well vote sooner rather than later. If that happens, 
then we have got a real problem.
    Senator Voinovich. How aggressive have the partners been? 
For example, how aggressive have the Japanese been, since they 
have almost as much at stake as we have?
    Ambassador Bolton. They have been working very closely with 
us. The Germans and the others--the Germans are the third-
largest contributors and it is something that, if you look at 
the potential parliamentary reaction, I think the Japanese are, 
perhaps, maybe second only to Congress in the level of 
attention that they have given to the reform effort, tied 
directly to the question of whether Japan gets a permanent seat 
on the Security Council.
    There have been discussions in New York that if Japan does 
not get on the Council they might well consider cutting their 
assessed contribution from its present level, which is 19.5 
percent, down to something like 14 or 15 percent. That is one 
option that is on the table for them.
    Senator Voinovich. The last one: Would it help if the 
Parliaments of the various countries could get a similar 
resolution?
    Ambassador Bolton. I would be delighted, I would be 
delighted. Anything you can do. I think it is very important.
    Senator Voinovich. Thank you.
    The Chairman. Thank you, Senator Voinovich.
    Senator Dodd.

   STATEMENT OF HON. CHRISTOPHER J. DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Thank you, Mr. Chairman. My apologies for 
arriving a bit late. We had a Banking Committee hearing, a 
markup on nominations and the flood insurance program, which I 
know is a critical issue for Indiana. So I wanted to make sure 
that--Lake Michigan maybe.
    Welcome, Mr. Ambassador. It is good to see you again. Let 
me begin, if I can, not in any particular order here. I gather 
a number of my colleagues have raised with you issues regarding 
what it would take to lift the caps at the United Nations. I, 
yesterday, wrote a letter to Secretary Rice on a similar issue 
just to share, because it is a letter to her, but I have no 
problem with it being a public document, talking about some of 
the very specific reforms that have taken place under Secretary 
General Kofi Annan's leadership.
    He pushed through U.N. greater financial disclosure policy 
that is more comprehensive, in fact, than the one U.S. 
political appointees face: Ethics office; one of the most 
important maybe, to create a U.N. information technology and 
accounting system that I know has been called on for some time. 
It goes on listing a number of those things.
    I gather--and you correct me if I am wrong, but in response 
to one of the questions that were raised you were not terribly 
specific about what you thought had to be enacted before those 
caps would come up. Let me pursue that with you a bit. Would 
you share with us and give us some sort of benchmarks that you 
think are critical to meet here for those caps to come off, so 
we have some idea as to what needs to be done, knowing for 
instance that the peacekeeping operations may be in jeopardy, 
obviously pretty quickly, if we do not get the caps off. At 
least I am told that that may be the case. You may want to 
correct me on that.
    Ambassador Bolton. The expenditure cap applies only to core 
expenditures of the United Nations itself. It does not apply to 
peacekeeping operations at all. So they will not be affected. 
The expenditure cap was in the biannual budget of the core 
United Nations, $3.8 billion over the 2006-2007 biennium, $1.9 
billion. This year the cap was $950 million, which is why we 
keep using the figure of June 30. At an even-burn rate of 
expenditures month by month, it would take you about 6 months 
into the year. But the peacekeeping budget is not affected.
    We have made over the past several months various 
interventions in the plenary discussions of the mandate review 
and the Fifth Committee discussions of the management reform 
areas, a number of the issues that we think need to be 
addressed. But I did say, earlier, we have not tried to draw a 
line in the sand. We have tried to say, look, if we have more 
success in one area with some of the politically sensitive 
mandates, for example, that they might be eliminated even 
though they do not save very much money, that could be an 
important sign of success, whereas if we deem it not advisable 
to go after them but we achieve some cost savings in some other 
areas, that we wanted to be flexible on that.
    We felt we had to show some significant reforms by the 30th 
of June and a path ahead that would show the way to making 
decisions on the rest. We have never said that we had to decide 
everything by June 30. So what we have been trying to do is 
actually be flexible and not say, if we do not get this, then 
bad things will happen. We have been trying to say we need to 
make progress and to be open to suggestions that we might find 
turn out to be acceptable to others that we would not 
necessarily have thought were high on our list, but would show 
progress.
    Senator Dodd. Are you satisfied that what I have described 
to you very briefly are major steps in the right direction?
    Ambassador Bolton. Well, I think those are steps that were 
in-train before the summit last September, and whether they 
are--they are certainly all things we have supported. Whether 
they turn out to be successful or not, remains to be seen. 
Certainly that is something we will be working very closely 
with the Secretariat on. Those are the ethics steps in 
particular.
    Senator Dodd. Am I to conclude that you are optimistic that 
this thing is going to be, this matter will be resolved in the 
coming weeks here?
    Ambassador Bolton. I am not optimistic. That is why I 
mentioned one possibility we have floated is that we be 
prepared to, in effect, defer the point at which the 
expenditure cap kicks in for another 90 days. Again, the 
expenditure cap is in terms of dollars. It is not necessarily 
days.
    Senator Dodd. I understand.
    Ambassador Bolton. But if we added another $425 million, 
that might take us to about September 30, which by definition 
would give us 90 more days for further negotiations, and we 
would not even ask anything for it. Some people have said, 
well, you ought to at least tie it to some reforms, and our 
view is we just ought to say, look, we are not trying to 
provoke a crisis on June 30; let us give ourselves 90 more 
days. Maybe some people do not want to work in August, but I 
will be there, and let us see how much we can get done. If that 
were acceptable I think we would have a little bit more space 
and we might actually be able to accomplish more.
    Senator Dodd. Well, I hope you can, and I obviously 
prefaced my question by saying that all of us here, certainly 
on this side of the dais here, strongly support the effort in 
getting whatever meaningful reforms we can enacted in the 
United Nations. There is no debate at all, recognizing that we 
are dealing with a multiplicity of interests at the United 
Nations and the importance that that institution plays, the 
critical role it plays in advancing not only its own interests 
but our interests in many, many places.
    There is a correlation between what the United Nations has 
as its goals and our goals in many places around the world and 
it is critically important that that organization remain as 
viable as possible. So we will all be watching.
    Let me ask you as well--I mentioned to you I ran into the 
Ambassador in the corridor a few weeks ago and I shared with 
him, Mr. Chairman, that I----
    Ambassador Bolton. You did not say which corridor it was, 
though.
    Senator Dodd. It was over in the House.
    I mentioned to the Ambassador that I had had a brief lunch 
with the Ambassador from Iran, the U.N. Ambassador from Iran, 
which I found interesting, Mr. Chairman, and conversing about 
the obviously ongoing situation that exists here. Do you talk 
with him or do you have any relationship? Do we have any 
conversations? Are you authorized, I guess I should ask, to 
have any conversations with the Iranian Ambassador?
    Ambassador Bolton. No, I am not and so we do not. But my 
British and French counterparts, obviously, are in touch with 
him up in New York since they have diplomatic relations.
    Senator Dodd. Let me ask you. We had just a terrific 
hearing, I think a week ago, the chairman conducted. We have a 
lot of good hearings, but this one was particularly pointed 
because we had a group of people in front of us who represented 
a rather wide spectrum on political, ideological thinking in 
the country. The chairman, in fact all of us in one way or 
another, raised the issue of Iran and where we ought to be 
moving.
    There have been headlines in the paper, recently, about 
certain initiatives, and to a person--and the chairman will 
correct me if I am wrong; there were not many of us at that 
hearing. But as I recall, no one wanted to take the military 
option off the table. I do not recall them saying that, but 
they all suggested that probably the most likely avenue of 
producing the desired results--and that is particularly of 
convincing the Iranians that a nuclear weapons program is 
intolerable--was probably pursuing an aggressive, muscular, 
diplomatic initiative. At least I think that is the conclusion 
that they all reached, and again I think they represented a 
pretty wide spectrum.
    Are you prepared to share your thinking with us on this at 
all, or just give us some idea as to what extent is this idea 
being pursued and discussed? Obviously we are in a public forum 
and I do not expect you to go into great detail, but I would 
love to hear your thinking on this, generally, as to how we 
ought to pursue it and whether or not that option ought to be 
examined.
    Ambassador Bolton. You mean direct contact with the 
Iranians?
    Senator Dodd. Or in the context of an European initiative, 
however you think is possible. But does it make any sense to 
you that this is something that we ought to pursue?
    Ambassador Bolton. I think on the subject of the direct 
negotiations, both Tony Snow at the White House and Sean 
McCormack at the State Department addressed it yesterday. I do 
not have anything new or different to say on that score. But 
Secretary Rice, really beginning with the meeting that she had 
with her Perm 5 and German counterparts in New York about 2 
weeks ago, has been exploring ways to make the alternatives 
available to Iran very clear, both on the incentive side and 
the disincentive side.
    She is now considering the results of the meeting that was 
held yesterday in London and I am sure we will be in touch with 
her counterparts to see how we proceed down that road. It has 
been her view that we take a pause from the pursuit of the 
resolution we were after in New York in order to give this 
initiative some time, and now that that discussion has been 
held we will pick up again the resolution on chapter 7 making 
mandatory on Iran the requirement that it cease its uranium 
enrichment activity.
    That is one track while the incentives and disincentives 
package proceeds on another track as well. So I think it is 
actually a very active moment in a variety of diplomatic 
channels on Iran.
    Senator Dodd. Again, Mr. Chairman, I thank you for that. It 
is very, very worthwhile.
    A last quick question I have here. I am interested in 
knowing the rationale for our decision not to seek a seat on 
the U.N. Commission on--the Human Rights Council. I gather one 
of the achievements of U.N. reforms, I think, and I certainly 
read it as such, was the replacement of the discredited 
Commission with a new Commission. I think that is a significant 
achievement. We chose not to seek to be a member of the Council 
and I gather from accounts, at least as I read them--and you 
can correct them if I read it wrong--that you felt we could 
have more influence on the Council from the outside than being 
a member of the Council.
    I am curious about that argument. It just seems to me that, 
given the importance of this and the elevation of the status of 
this reform, how important it was to us to get the reforms on 
the Council--there are some who believe that we might not have 
been able to get the votes to get a seat on the Council, rather 
than making the decision ourselves to not be on the Council. It 
seems to me we have a far better chance as a member of the 
Council to help shape the decisions and the agenda of that 
Council than being on the sidelines.
    I would love to hear you tell me why that is not a viable 
reason, unless the reason was we did not have the votes. If 
that is the case, then no matter what the argument is it does 
not make much sense if we did not have the votes.
    Ambassador Bolton. Well, we never did a vote count, so I do 
not really know the answer to that. We tried to make a judgment 
on the merits and the merits convinced us that, although it was 
a call that required some thinking, that it was better to stay 
on the outside.
    Senator Dodd. How could it possibly be better to be on the 
outside when you are trying to shape such an important forum?
    Ambassador Bolton. The empirical basis for that is the 
experience we had in 2002 after the United States was defeated 
for a seat on the Human Rights Commission, when, in fact, in 
Geneva when the Commission met in 2002 we probably had more 
influence on the Commission's decisions, in the opinion of 
those who were monitoring it carefully, because so many 
countries wanted to convince us to run again the next year and 
get a seat.
    I can tell you from the reporting that we have from our 
colleagues in our mission in Geneva, who are, today, 
participating fully in all of the preparatory work for the new 
Commission, that we, and frankly others that are not members of 
the new Council as well who want to participate, are taking 
just as much a role as the countries that actually were 
elected.
    So it was our judgment that--and it may seem 
counterintuitive, but I think there is a basis for it--that we 
would have as much, or maybe even more, influence if we did not 
seek a seat.
    Senator Dodd. Well, that is an intriguing argument, but I 
accept it at this point.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator Dodd.
    Senator Sarbanes.

 STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Just to pursue the Human Rights Council for a moment, I 
think that not enough credit has been given to Ambassador 
Eliason for what he was able to negotiate with respect to the 
changes from the Commission to the Council.
    For those of us who have to count votes, getting a majority 
of everyone who is a member of the organization is no small 
threshold. I think, in fact, when the vote was taken all but a 
couple of countries would have gotten on even if it was two-
thirds of those voting, which was the position you were 
pushing, if I am not mistaken.
    Ambassador Bolton. It was the Secretary General's position, 
which we supported.
    Senator Sarbanes. Which was two-thirds of those voting?
    Ambassador Bolton. Present and voting.
    Senator Sarbanes. And Eliason got a majority of all of the 
total membership; is that correct?
    Ambassador Bolton. That is correct; 96.
    Senator Sarbanes. And am I correct that in the vote that 
just took place, only a couple of the countries that did get on 
would not have gotten on under the standard you were 
supporting; is that correct?
    Ambassador Bolton. I have not, myself, made that count, so 
I would have to take a look at it.
    Senator Sarbanes. I think only Azerbaijan and Saudi Arabia 
passed the majority vote but fell short of gaining two-thirds 
of those present and voting. The others--China, Cuba, Pakistan, 
Russia, some of the ones whose human rights performance is 
questioned--would have qualified even under the other standard, 
I think.
    You have no information to the contrary?
    Ambassador Bolton. As I say, I have not done that 
calculation. I just cannot respond.
    Senator Sarbanes. I think it is an interesting calculation 
to do, as a matter of fact.
    I want to ask you about Darfur. We are pressing hard, as I 
understand it, for a U.N. force to go into Darfur; is that 
correct?
    Ambassador Bolton. Well, we are trying to do two things. 
The first is to transition from the existing African Union 
force in Darfur, which we call AMIS, the African Union Mission 
in the Sudan, which is not projected to take place for another 
6 or perhaps more months. We are certainly working to make that 
happen earlier.
    But second, in whatever period it will take for AMIS to be 
replaced by--I am sorry to use these acronyms--UNMIS, the U.N. 
Mission in the Sudan, which is currently in the southern part 
of the country and whose mandate would be expanded to Darfur, 
in that, whatever that interim period is, we want to take steps 
to strengthen the existing AMIS force, which has done a 
commendable job as far as it has gone, but which does not have 
the resources and the mobility to provide real security 
throughout the region.
    So I want to stress that we are not simply waiting for 6 
months before we can re-hat to a U.N. force, but also looking 
at ways to strengthen, in effect move forward, the transition 
to a U.N. force.
    Senator Sarbanes. I guess my concern is that the U.N. force 
would require additional undertakings by the United Nations and 
further budget requirements. Yet, you have put in a budget cap 
at the United Nations.
    Ambassador Bolton. The budget cap does not affect 
peacekeeping.
    Senator Sarbanes. Well, as I understand it, the direct 
funding of the peacekeeping is done separately, and I want to 
address where the United States is contributing to that. But I 
also understand that the U.N.'s general budget authority, which 
is affected by the cap, does cover the coordinators in the 
Department of Peacekeeping Operations, which provides support 
for the peacekeepers. I am told it provides a whole range of 
logistical support for the peacekeeping efforts. That Office 
would be affected by the cap and, in fact, might be very 
severely impinged by it.
    So if that is the case--and if it is not in your knowledge 
bank at the moment, I would hope you would go back and check on 
it--then we are somewhat at cross-purposes here. We have 
imposed a cap and yet we are pushing programs which are going 
to put us in conflict with that cap. Would that not be the 
case?
    Ambassador Bolton. Well, as I said before you came in, 
Senator, one of the things we have floated in New York is to 
extend the effect of the expenditure cap coming into play by 90 
days to--and I will not recite all the reasons for it again, 
but, basically, that would give us more time to try and make 
more progress on the reform effort and avoid coming to a 
potential crisis on June 30.
    Now, I cannot guarantee, I am sure you understand, that 
when we get to September 30, things are necessarily going to be 
better. But this is one of the reasons why we have offered this 
in New York and we hope that it would get serious 
consideration.
    Senator Sarbanes. Well, I understand you want to keep the 
pressure on. I do think that at some point you have to 
calculate whether it is going to impede some of these other 
major goals we have, which are quite significant and 
substantial to us. Of course, Darfur obviously has attracted a 
lot of attention in the Congress and across the country and 
indeed around the world.
    On the peacekeeping itself, I understand we are about $400 
million in arrears on U.N. peacekeeping.
    Ambassador Bolton. I suspect in terms of U.N. accounting it 
is actually more than that, since the bills for peacekeeping 
assessments come irregularly through the year. They come 
depending on the mandate renewal times and the rest, and the 
assessments are due in U.N. accounting practices 30 days after 
the bill is presented. Since the authorization of mandates and 
the consequent billing for peacekeeping do not mesh with the 
U.S. budget cycle, our arrears are probably technically higher 
than that. That would be fixed, presumably, by the end of this 
year when the congressional appropriations process is finished.
    Senator Sarbanes. In May the administration's request did 
not provide for full funding for the peacekeeping arrears, 
regrettably.
    Ambassador Bolton. Well, that is the consequence of 
difficult budget decisions. But I think the arrears as such--I 
do not want to play word games with you, but technically in the 
U.N. system you are deemed to be in arrears if you have not 
paid your bill 30 days after the assessment is billed to you, 
whereas, in fact generally speaking, we pay during the same 
calendar year the assessment comes due, although often toward 
the end of the year. So that by the time you get to December 
31, the arrearages level will actually be much smaller. So I do 
not know what calculation you are looking at.
    Senator Sarbanes. Well, I think the calculation I am 
looking at is pretty conservative in estimating what the 
arrears are. In other words, it is allowing for the lapse of a 
substantial period of time, as you pointed out.
    Ambassador Bolton. I think I agree with you on that.
    Senator Sarbanes. Pardon?
    Ambassador Bolton. I think I agree with you on that.
    Senator Sarbanes. As you pointed out in your previous 
answer, actually by the U.N. accounting, the figure is probably 
much larger. But that includes payments 30 days overdue, and 
these figures do not. These figures assume a much larger lapse 
of time before we call them arrears.
    I want to ask you about this disarmament commission, of 
which Iran became vice president; is that right?
    Ambassador Bolton. Yes; that is correct.
    Senator Sarbanes. Israel also, I think, became a vice 
president of that commission?
    Ambassador Bolton. That is correct.
    Senator Sarbanes. Of course we have been trying over the 
years to enable Israel to play a greater role at the United 
Nations. Did we object to the Iranian inclusion, call for a 
vote or do anything to try to block it? Because I understand 
these decisions and made by acclamation, so if a country does 
not object, it just happens.
    What was the case in this instance?
    Ambassador Bolton. Well, that was a situation that took 
place in Geneva, so I hate to sound like a bureaucrat, but not 
exactly in my jurisdiction. My understanding of the nature of 
that decision was that the Asian group selected Iran as its 
regional group candidate for one of the vice chairmanships of 
the CD and that that was, in fact, accepted unanimously, which 
is the practice that has developed at the United Nations over 
time; that the regional group picks its representative and that 
particular country is elected.
    Senator Sarbanes. Well, Mr. Bravacco, who was our 
representative at that meeting of the Commission, is he one of 
your people or one of the State Department's?
    Ambassador Bolton. I do not think I have ever met him. I 
think he is probably part of the mission in Geneva.
    Senator Sarbanes. Now, one of the changes that was 
negotiated with respect to the Human Rights Council, as I 
understand it, was that the regional groups no longer 
automatically get to choose a candidate who is automatically 
accepted as a member of the Council. Candidates must be voted 
on by the entire membership. Is that correct?
    Ambassador Bolton. Well, that is true, except in this 
election. For example, Africa, which is allocated 13 seats on 
the Human Rights Council, only presented 13 candidates. Now, it 
is true they had to get--each of them had to get over 96 votes. 
But as it turned out, all 13 were elected. It is not the same 
as the regional group slate, to be sure. But in this case it 
had the look of it.
    Senator Sarbanes. Well, any one of them could have been 
voted down, though?
    Ambassador Bolton. That is correct.
    Senator Sarbanes. And then, presumably, the region would 
then have had to bring someone else forward; is that right?
    Ambassador Bolton. We do not know the answer to that 
question. I am not trying to duck it. Because we have never had 
this kind of election before, it was uncertain what would 
happen.
    Senator Sarbanes. But would you agree that the election is 
more open and leaves greater opportunity now for judgment than 
the previous way that the membership of the Human Rights 
Commission was being selected?
    Ambassador Bolton. I do not think we fully know the answer 
to that question because I do not think you can judge on the 
basis of one election. I think we are going to have to look at 
this over probably a 2- or 3-year period. In the case, for 
example, of the Western group there were more candidates than 
there were seats and, for reasons that surprised a lot of 
people, Portugal and Greece were two countries that did not get 
elected. It is very hard to understand why that worked or how 
it would work in other contexts as well. So I think it is hard 
to draw conclusions, it is hard to draw definitive conclusions, 
on the basis of just one election.
    Senator Sarbanes. Yes; I do not quarrel with that. But I 
just think that the process is more open to judgment than the 
process that the Commission had, where as I understand it the 
selection at the regional level was the end of the selection 
process.
    Ambassador Bolton. That is correct, and the selection at 
the regional level still has to be put to a vote; that is 
correct.
    Senator Sarbanes. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman.
    Ambassador Bolton, thank you for coming and talking to us 
today about an issue that many of us here in the Senate believe 
is of great importance, and I know that it is at the top of 
your agenda. I will just make brief remarks because I do have a 
few questions, but I would like to say a word about how the 
United Nations, for all its flaws, is important to our own 
long-term interests. The United States simply cannot go it 
alone on the array of threats and challenges that confront us 
in the world today--terrorism, nuclear proliferation, the 
spread of infectious diseases, armed conflict, genocide, 
natural disasters on the scale of the Asian tsunami and the 
earthquake in Pakistan.
    Today we are looking to the United Nations to respond to 
some of the biggest threats to international peace and 
security, including the nuclear crisis in Iran and the ongoing 
genocide in Darfur. Far from being irrelevant, the United 
Nations plays an important part in our national security.
    I agree that the United Nations must become more effective 
and more accountable. We absolutely must ensure that our 
taxpayer dollars are being spent wisely. We need real reform at 
the United Nations because we need the United Nations to be an 
effective institution. So while there are still challenges 
ahead, there have been successes on this front. Further success 
will require U.S. leadership and a genuine willingness to work 
and engage with other nations.
    Ambassador, when you were here last October you said that 
``In addition to management reform, the question of reform of 
the fundamentally broken U.N. machinery on human rights remains 
a very high priority for us.'' With respect to the new Human 
Rights Council, I agree that the body was and is a top 
priority. I also agree with the administration that the new 
Council is an improvement, as I just indicated, but it still 
falls short of the mark. What happened? If it was such a 
priority for us, why were we not more successful in our 
negotiations?
    Ambassador Bolton. I think it is very regrettable that we 
did not get as much reform as we were seeking. That was the 
fundamental reason why we took the very hard decision we did to 
vote against the resolution creating the new Human Rights 
Council. I am certainly aware of the criticism we got for that, 
that we had made the perfect the enemy of the good. But we 
thought it was important to make it clear that the changes that 
had been proposed were not as substantial as we wanted and that 
the real risk, therefore, was that the new council would be 
different in name only, not that that was going to diminish the 
intensity of our effort to make it work or diminish our 
commitment to human rights. But the fact was that in instance 
after instance after instance changes to the existing 
Commission had been proposed that in the aggregate we think 
would have contributed to a fundamentally different outcome 
from the new Council, were stripped down, cut back, or 
eliminated.
    Senator Feingold. Ambassador, that is the result and I 
understand that. I am asking you, why did it happen, and at 
what level were the negotiations conducted, for example? I 
understand that most member states and, in particular, the so-
called spoilers had their ambassadors in the room for basically 
all of the meetings. Is that accurate?
    Ambassador Bolton. If I could address that question----
    Senator Feingold. Please, go ahead.
    Ambassador Bolton [continuing]. The reason I started off on 
the substance is because I think it is important to understand 
what happened in the negotiations. Many of the changes that we 
supported had also been supported at the outset by the 
Secretary General and by almost all of the European countries. 
What happened during the course of the negotiations was that 
the opponents of real change, in our view, the opponents of 
real change wore down the Europeans and others to the point 
where in case after case after case positions that we had 
started out and advocated together, we were left basically 
alone as others gave in on one issue or another.
    The question of how this was negotiated, I think, has been 
reported by some people who, perhaps, were not familiar with 
the real substance of it in an accurate way. There were a lot 
of meetings of the working group of the General Assembly on 
human rights, where basically people come and read statements. 
There is not real negotiation going on in the room. People come 
and read statements.
    At the time that most of the negotiations were going on, 
instead of having its complement of five ambassadors in New 
York, the United States had two, which made it difficult for us 
to cover at the ambassadorial level all of the various meetings 
we needed to cover.
    Senator Feingold. So this wearing down occurred some times 
when we were sort of undermanned?
    Ambassador Bolton. Well, in part, but it occurred. The 
point I was trying to make was that the real negotiations take 
place behind the scenes and who is sitting in a room at any 
given time while people are reading prepared statements is not 
really a measure of the level of effort that we were 
undertaking, even though we were undermanned.
    Senator Feingold. Were you personally present in 
negotiating meetings from the time when they began?
    Ambassador Bolton. Absolutely.
    Senator Feingold. So were you in these meetings where these 
efforts were being made by the so-called spoilers?
    Ambassador Bolton. Where the real negotiations were taking 
place, I was frequently there; that is right. I was often not 
there at meetings where people were sitting around and reading 
statements, where no negotiations were taking place.
    Senator Feingold. But in these meetings where the real 
concessions were made that we did not like, you were present? 
It sounds like we sort of got taken to the cleaners.
    Ambassador Bolton. Sad to say, many of the concessions were 
not made in negotiating sessions. They were made within 
decisionmaking mechanisms in the European Union and other 
places where the decision was made not to stick with the going-
in position.
    Senator Feingold. And in the end how many countries voted 
with our position?
    Ambassador Bolton. A total of four voted with us.
    Senator Feingold. You discussed the recent vote by the G-77 
rejecting much of the Secretary General's reform proposals. You 
noted that it is very unusual for budget matters to be voted 
on. Typically, I understand that they are done by consensus. 
Can you comment on how we got to this confrontational 
situation? Was this the first time that this consensus rule was 
broken?
    Ambassador Bolton. No, and I think it is important to 
understand where the consensus practice came from. In the early 
and mid-1980s and before that, decisions in the Fifth Committee 
were typically taken by majority vote, by vote of one kind or 
another. In the course of the early 1980s and the mid-1980s the 
voting against the United States position became a routine kind 
of event and the United States lost votes on budget matters by 
overwhelming majorities.
    One reaction to that took place in Congress when Congress 
decided to begin withholding the U.S. assessed contributions. 
So, recognizing the effect that had on the organization, the 
Fifth Committee of the General Assembly instituted consensus-
based budget decisions, so that the views of all of the members 
could be taken into account. That position, that practice of 
consensus-based budgeting, took place basically during most of 
the next 20-year period.
    The circumstances dealing with this resolution were that 
the Fifth Committee was considering a variety of statements 
that had been made in their deliberation over the Secretary 
General's report ``Investing in the United Nations,'' which was 
the report the Secretary General made on management reform, 
when very unexpectedly, I think not just to us but to most 
other non-G-77 countries, the G-77 put forward the text of a 
resolution that essentially eliminated the prospects for some 
of the Secretary General's recommendations and dramatically 
diminished the prospects for most of the rest, and they pressed 
for this resolution to be adopted, and they said it was a kind 
of theater in the Fifth Committee.
    They would say: We ask that the motion be adopted by 
consensus. So the presidency of the European Union would raise 
his hand and say: There is not a consensus on it. Japan would 
say: There is not a consensus. We would say: There is not a 
consensus. It was clear there was not consensus.
    Now, in a typical----
    Senator Feingold. When did these events occur, do you 
remember?
    Ambassador Bolton. This was a couple weeks ago. I would 
have to get you the exact dates.
    Senator Feingold. So the consensus was broken in this 
situation?
    Ambassador Bolton. There was no question there was no 
consensus.
    Senator Feingold. This was not the first time that the 
consensus situation had been broken in the past. Is it not true 
that the United States first broke this pattern back in 
December? Did we not do it first?
    Ambassador Bolton. No. Let me go back to the mid-1980s. At 
that time there was the Kassebaum-Solomon legislation that 
provided--I am testing my memory here, but basically said that 
if budget decisions were not adopted by consensus that there 
would be consequent withholdings. I do not recall the specifics 
of it.
    But the effort to achieve a consensus-based formula was one 
that was basically motivated by a desire to keep the United 
States involved. There have been various instances where 
consensus was not obtained, but this was the, I think, 
listening to the statements of representatives of the EU 
countries and many others, including some in the G-77, the 
biggest breach of that precedent in the 20-year history of the 
practice.
    Senator Feingold. Did we not breach it in December, though?
    Ambassador Bolton. On what matter?
    Senator Feingold. I understand there was a matter in 
December where we objected and there was not a consensus.
    Ambassador Bolton. Well, there are often not consensus 
decisions on a range of issues. This is the Fifth Committee. If 
you give me the specifics I would be delighted to try and 
respond.
    Senator Feingold. I will submit you something, if we could, 
to try and get a more specific response on that.
    Obviously, I think we should all be doing all we can to 
avoid the scenario of the U.N. shutting its doors in June. What 
diplomatic activities are you engaged in personally in New York 
with others at the United Nations to convince agencies to 
follow through on these reforms? Is Secretary Rice pressing the 
issue in bilateral negotiations with her counterparts abroad, 
and how do you plan to reach out to the G-77 members?
    Ambassador Bolton. Well, Secretary Rice is certainly 
personally involved in discussing this with many of her 
counterparts, and I laid out before you came in a series of 
things we are doing, including the offer that we have made, the 
suggestion that we have made, to defer the coming into effect 
of the budget cap for 90 days.
    We would have to say at this point on management review and 
on the mandate review that we have not achieved any measurable 
progress on reform. So to avoid having the expenditure cap kick 
in at a point where an honest answer to the question, how much 
management reform have you got, would be pretty close to zero. 
We have suggested just moving it back 90 days, moving it 90 
days to the right, to allow more discussions to continue.
    But I can tell you that within the mission, within the 
State Department, at our embassies around the world, there is a 
huge amount of activity going on to try and make these reforms 
successful. That is the mandate that the President and the 
Secretary have given us and that is what we would like to try 
and see have happen.
    Senator Feingold. Thank you, Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    We are going to have a vote very shortly. I will go and 
vote. I will put the chair in the hands of Senator Voinovich, 
who will have an opportunity to raise a question and recognize 
Senator Sarbanes, who may have a question. Then I will be back, 
in the event that others have questions, to conclude the 
hearing.
    Senator Voinovich. In other words, if no one is here I will 
just adjourn the meeting?
    The Chairman. Correct.
    Senator Voinovich [presiding]. OK. Thank you, Mr. Chairman.
    I mentioned to you in my first round of questionings the 
issue of Christian Burnham, Under Secretary for Management. On 
page 12 of your testimony you go into the arrangements, with 
quotes from David Walker, ``U.N. funding arrangements constrain 
OIOS's ability to operate independently, as mandated by the 
General Assembly and required by international auditing 
standards OIOS has adopted.''
    How much of the reform--how much do the reforms have to do 
with what Burnham's doing? In other words, is he able to do 
anything? Or does this vote by the Fifth Committee and then by 
the General Assembly, has that stopped him from doing things 
that he talked to me about when I was there?
    Ambassador Bolton. He is continuing on a variety of the 
things he is trying to do, and he has run into enormous 
criticism, I have to say. My job is not easy; his job is even 
harder. He has undertaken very substantial work to reform the 
procurement practices of the United Nations, including 
suspending without pay, I think it is now 8, 10 employees of 
the procurement operation, while investigation continues both 
internally in the United Nations and in law enforcement 
channels as well.
    There are a range of activities that we think the Secretary 
General currently has authority to do and we have encouraged 
the Secretary General to proceed to make the changes that he 
can make. One of the consequences of the G-77 resolution we 
have been talking about, what we think was to brush back the 
Secretary General, to make him more hesitant to proceed, and we 
have certainly urged that he not be deterred by that, because 
there are significant steps that the Secretary General can take 
within the existing authorities and I think moving in a variety 
of fields in the accounting and auditing field, for example, in 
strengthening the whistleblower protection operation and the 
ethics office.
    Many people in the U.N. system are not familiar, for 
example, with whistleblower protection and they are uncertain 
what it means. If you come forward are you really protected, 
because it is new to that culture. So there are a lot of things 
that Burnham is doing in particular to try and follow through 
on the implementation of these steps, but also steps the 
Secretary General, himself, can take, which we hope he will.
    Senator Voinovich. I would like to know what steps he can 
be taking and what Burnham is doing, just to get an idea of the 
fact that we are moving the ball down the field in this regard 
and how the vote on the reforms is hurting us. You mentioned, 
in terms of the mandates--and we have got this JUSKCANZ group 
working with you--the deal-breaker with that one is how far do 
they go back? If we lose that one then we have lost the 
mandates thing, so that is the big one, right?
    Ambassador Bolton. That is correct, and that has not been 
addressed in the General Assembly review yet.
    Senator Voinovich. I would like to comment, too, that 
somebody talked about the Human Rights Council. I contacted 
several embassies, EU embassies. I think what happened was 
Eliason worked with the European Union and they compromised and 
we were out, we lost, as distinguished from the fact that 
JUSKCANZ is moving on helping you with the mandates, correct?
    Ambassador Bolton. That is correct.
    Senator Voinovich. On the reforms, have you identified 
deal-breakers on the reforms? In other words, what are the key 
things in the reform area where you really think we need to 
have it if we are going to go forward? Do you know what those 
are? Can you share with us?
    Ambassador Bolton. I will provide to the committee the list 
of 20-some specific clusters of mandates that the JUSKCANZ 
group has agreed to as their priorities. But as I said earlier, 
we have tried to avoid saying we have to have X or Y or Z and 
if we do not have that the expenditure cap will come into play, 
in an effort to show flexibility, that these are the areas 
where we want to proceed.
    I think the one thing----
    Senator Voinovich. Is the JUSKCANZ group helping you on the 
reforms, too?
    Ambassador Bolton. Yes. Absolutely.
    Senator Voinovich. So you guys are together on both the 
reforms and the mandate?
    Ambassador Bolton. Yes. We have got this list of, I think, 
it is 22 mandates that we are all in agreement on. We have 
additional ones we would like to see and different other 
members have different ones. But these are the ones all of us 
have agreed on.
    I think the one area where I do not see room for compromise 
is we have to have a road ahead after June 30. In other words, 
we have to have some agreed-upon process by which we are going 
to address the mandates that we are clearly not going to have 
time to address by June 30.
    As I said earlier, nobody ever believed we would finish 
everything by June 30 and we do not expect that. But what we do 
expect is that we will say we will get done as much as we are 
going to get done and then we have got a concrete agreement on 
how we are going to review what else is out there. If we do not 
have that agreement, I am worried that we go back to business 
as usual and that the reform process is over. So that way ahead 
is important, specifically this year, but it is also important 
to establish what Secretary Rice wanted, the lasting revolution 
of reform. That kind of mechanism has to be put in place.
    Senator Voinovich. So what you are saying is that you have 
identified areas that are key and the team is communicating to 
them, but there is a point where, first of all, you want a 
procedure in place to show that they are going to be getting 
together and that they are not going to take a vacation and 
that you will not see them again until September. So that is 
one thing that you think is fundamental?
    Ambassador Bolton. That is correct.
    Senator Voinovich. And we will find that out pretty quick, 
right?
    Ambassador Bolton. I think that is right.
    Senator Voinovich. No. 2, there is a pretty clear consensus 
about three or four things among the group that you need to be 
really talking about that should be resolved, and you have a 
pretty good idea about where you stand in terms of that by the 
30th of September?
    Ambassador Bolton. Well, if we get the extension, as I 
said, if we move that to the right by 90 days, that would give 
us more time.
    Senator Voinovich. What I am pointing out is, in terms of 
things like how far do you go back in the mandates, you are 
going to have a pretty good idea on the three or four things, 
top things that you have agreed upon, by September as to where 
these folks stand.
    Ambassador Bolton. We are going to need to have that, 
right.
    Senator Voinovich. The question is, How much help are you 
going to be getting? Are there any odd men out in the G-77? Do 
you have any people that you are talking to that have said, 
gee, we think these reforms should go forward? I don't know, 
like somebody said, hiring and firing, that the guy will not 
have the authority to fire people like that, but that they will 
put a procedure in place that if somebody is going to be fired 
they have to go through a certain committee or some darn thing. 
But there are areas you think that some compromise can be made 
in the areas where they seem to be giving us the biggest 
problem?
    Ambassador Bolton. What we are trying to do there is in 
discussions within the G-77 to try to find countries that are 
willing to agree with the argument that these reforms are 
basically in the interest of the whole organization, and there 
is resistance within the G-77 to breaking up into pieces. As I 
said earlier, their whip organization is very strong. Even 
though many of the moderate G-77 countries tell us that they 
fully support the reform idea, they say: We cannot stand up in 
the G-77 meetings and make it look like we are opposing the 
leadership.
    This is a sociological, political problem in New York that 
has been around for years and years and years. But finding a 
way through that I think is going to be critical to getting a 
successful outcome on reform. It is a major subject for us.
    Senator Voinovich. Is there anything that we can do to help 
you?
    Ambassador Bolton. Well, I continue to believe that if I 
could coax more Senators and Representatives to New York to sit 
down with not only the G-77, but with other countries, because 
I do think--I think this came up in my confirmation hearings 
last year--there is bipartisan support for reform. And I think 
when they hear it--they can hear it from me day in and day out. 
When they hear it from people who are actually elected by real 
American citizens, it does have an influence. So I would 
welcome the help.
    I know what you and other Senators did in terms of talking 
to ambassadors here in Washington to impress on them the 
seriousness with which Congress takes this effort is another 
positive contribution.
    Senator Voinovich. Senator Coleman and I are going to be at 
the NATO meeting this weekend and we have talked about drafting 
up something where we can start talking to some of our 
colleagues there that are on this list of the top dues-payers, 
to see if they might do something simultaneously with us and 
their respective Parliaments.
    Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    To what extent do you feel you are undercut in advancing 
positions at the United Nations because of the U.S. arrearages 
in making various payments to the United Nations? In other 
words, do they say, well, that is fine for you to say, but you 
are not paying up your membership requirements?
    Ambassador Bolton. Well, I think it is an issue that is 
raised frequently, particularly by G-77 countries. There is a 
little mantra they have about countries paying in full and on 
time. So at the rhetorical level I think there is no question 
but that it is a factor.
    But if you are asking for a concrete political judgment, I 
do not think it has any impact.
    Senator Sarbanes. In percentage terms, I looked at a table 
that said we were 60 to 70 percent of the arrearages--are U.S. 
arrearages at the United Nations. Is that correct? Is it that 
predominant?
    Ambassador Bolton. Again, Senator, if I could see the table 
I would respond to it, because it depends on how you are 
defining the arrearages, as we discussed earlier.
    Senator Sarbanes. Well, no matter how you define them, that 
is probably a fairly accurate situation, is it not?
    Ambassador Bolton. In dollar terms, there is no doubt we 
have the largest arrearages. Where it stands in percentage 
terms, as I say, it depends at what moment in the year you are 
talking about.
    Senator Sarbanes. Now, I am concerned that I understand as 
a bargaining tactic you sort of hang tough, but I am also 
concerned about what it does if you do not recognize the things 
that have been accomplished as you move forward. Now, your 
perception I gather is that the Human Rights Council is a 
change that did not amount to much. I differ with that 
perception. I thought they amounted to something and they 
opened up some very real possibilities, as I indicated earlier 
in our discussion.
    This JUSKCANZ group that you now have pushing for reforms, 
how many of them were with you on the position on the Human 
Rights Council?
    Ambassador Bolton. All of the other members of the 
JUSKCANZ, which is a pretty loose group, all of them voted in 
favor.
    Senator Sarbanes. Voted in favor.
    Ambassador Bolton. We did not discuss that with the 
JUSKCANZ.
    Senator Sarbanes. But none of us were with us--none of 
them? The group you are now in pushing reform, none of them 
were with us on that issue, is that right?
    Ambassador Bolton. Well, they were at the beginning on many 
of the points. In the end they voted in favor of the 
resolution.
    Senator Sarbanes. I know, but you do not get everything you 
want in any negotiation, I do not think.
    Let me ask you, because I am interested in the sort of view 
that nothing has been achieved. Sometimes it helps if you 
provide some encouragement as well as some condemnation as you 
are trying to move forward on a reform agenda if things get 
done that amount to something. Now, Burnham apparently has said 
that the whistleblower protection policy is the strongest of 
any international organization. Would you agree with that?
    Ambassador Bolton. I think that is probably right.
    Senator Sarbanes. You think it is right?
    Ambassador Bolton. Probably right.
    Senator Sarbanes. Well, that is an accomplishment, would 
you not say?
    Ambassador Bolton. Sure.
    Senator Sarbanes. Now you need to implement it, obviously.
    Ambassador Bolton. Absolutely.
    Senator Sarbanes. But as a policy it is a substantial step, 
is it not?
    Ambassador Bolton. It is a very important step for the 
organization.
    Senator Sarbanes. Now, have they created an ethics office 
and sought to improve ethics training?
    Ambassador Bolton. They have.
    Senator Sarbanes. Do you regard that as amounting to 
something?
    Ambassador Bolton. I think that is a good first step.
    Senator Sarbanes. What about the financial disclosure 
policy in an effort to get more transparency and improved 
oversight? Has that been strengthened?
    Ambassador Bolton. I think the policy is an excellent idea.
    Senator Sarbanes. I understand that they have set up an 
independent oversight advisory committee.
    Ambassador Bolton. They have, but that is a pale version of 
what Paul Volcker recommended.
    Senator Sarbanes. And when you say that then, are you just 
sort of dismissing it?
    Ambassador Bolton. No. It is a first step, but Chairman 
Volcker was very disappointed, I can tell you.
    Senator Sarbanes. Was it the Chinese who said the journey 
of a thousand miles begins with a single step?
    Ambassador Bolton. They may have.
    Senator Sarbanes. I think when we went to the Moon we said 
something like that, or our astronauts: One small step for 
mankind.
    Is the United Nations undertaking an independent external 
review of its oversight system?
    Ambassador Bolton. It was directed to do so by the outcome 
document, but I am not aware of specific steps that have been 
taken to implement that. I would have to check on that further. 
I am not aware of that.
    Senator Sarbanes. If specific steps had been taken, would 
you regard that as amounting to something?
    Ambassador Bolton. It would amount to something.
    Senator Sarbanes. Has a peace-building commission been 
created?
    Ambassador Bolton. Yes; it has.
    Senator Sarbanes. Approved by the General Assembly?
    Ambassador Bolton. Yes; it has.
    Senator Sarbanes. Was that one of our major reform 
objectives prior to the world leaders summit?
    Ambassador Bolton. It was an objective. The real question 
is how it performs in operation and whether it comes into 
conflict with the Security Council.
    Senator Sarbanes. How far do you think it gets us if these 
things are done--and some of them, they are being implemented 
fairly well, apparently; on others there is a question of the 
implementation. Now, if you sort of denigrate or downplay the 
policy change do you think that is going to help further 
effective implementation or hinder effective implementation of 
the policy?
    Ambassador Bolton. I do not think I have denigrated them. I 
think the testimony makes that clear.
    Senator Sarbanes. Well, here today. But I think generally 
speaking, these things--earlier you made some comment to the 
effect that you did not think any of this really amounted to 
anything.
    Ambassador Bolton. No, what I think I said was in the area 
of management reform and mandate review stemming from the 
Secretary General's recommendations in ``Investing in the 
United Nations,'' his March report, and in the mandate review 
ordered by the outcome document of the September summit, we 
have not achieved any management reform and we have not 
accomplished any change in the mandates.
    Senator Sarbanes. Well, I would suggest to you that 
sometimes a carrot as well as a stick are helpful in bringing 
about change. If the United States, which after all is a 
significant actor, says nothing is good enough, nothing has 
been done, we are not really getting anywhere, it seems to be--
it is in your opening statement: ``To be frank, the overall 
results have not been particularly encouraging.''
    Ambassador Bolton. I think that is a fair statement.
    Senator Sarbanes. ``And there has been some movement, but 
no real notable success so far.'' Well, some of these items 
represent a notable success, don't they?
    Ambassador Bolton. I think much remains to be seen. I think 
when you change the policy that is a step forward. Whether the 
policy gets implemented or not, I do not know. Let me give you 
a specific example----
    Senator Sarbanes. Do you not think you should in some way 
encourage that?
    Ambassador Bolton. I think we have.
    Senator Sarbanes. I would hate for you to be the coach of 
an athletic team, because it seems to me you would be berating 
the players all the time, even when one or another of them may 
have really done a pretty good job or turned in a pretty good 
play.
    I understand you sort of mix these things, and trying to 
bring about change is not easy to do, as has been pointed out, 
particularly with an organization that has been sort of set in 
its ways for a very long period of time. This role of the 
constant scold I am not sure is the best way toward change.
    Ambassador Bolton. Well, I do not think that is the role we 
are fulfilling. But Joseph Schumpeter, the economist, once said 
that one of the advantages of capitalism was that it brought a 
gale of creative destruction because of the impact of 
competition and market forces. In terms of the revolution of 
reform in New York, it would be nice to have a little bit more 
of a stiff breeze.
    Senator Sarbanes. We deal here in an environment which in 
some ways I think is not altogether different from the 
environment you have to deal with up there, and I think I can 
safely say to you that if we went at it from the point of view 
of creative destructionism I do not think we would get very 
far.
    With that, I thank the chairman.
    Senator Voinovich. Thank you, Senator Sarbanes.
    I will just conclude by saying that I was impressed with 
your testimony this morning, Mr. Bolton. I think that the 
multilateral approach that you are taking in working with other 
countries is one that is well taken. I know you tried with the 
European Union and you were not successful. The President of 
the General Assembly was pretty effective with some of his 
friends.
    But the fact that you have got the team together on these 
other two areas I think is very, very important, and I suggest 
you stay with that. Let us do it together. Let us not be 
unilateral. I think that is what Secretary Rice has done with 
her coming on as Secretary of State. The word is getting out 
that we are working with other people.
    I was at the German Marshall meeting in Brussels that was 
held on trans-Atlantic relationships and I was impressed with 
the receptivity that the European Union had toward the United 
States and the very positive words that Mr. Solana had to say. 
In fact, some thought he was a little bit too positive.
    We will be in NATO--the NATO meeting in France coming up--
and we will have a chance to see the relationship there. 
Several years ago it was not very good.
    So I just say keep going, working with other people, 
particularly I think with the Japanese, because next to us they 
are the ones that are putting more money in than any other 
country. Also, following up on Senator Sarbanes' comments, give 
us the best information you can about the progress that has 
been made. I am particularly concerned about Mr. Burnham and 
where he is going, and Kofi Annan. Maybe we could encourage him 
to stay in there and get it done. This is his last hurrah and 
what a wonderful legacy if he could just do administratively 
whatever he can, understanding that some of the other stuff may 
take some time.
    Thank you very much for coming today.
    Ambassador Bolton. Thank you. Could I just say one word 
before you adjourn? On the European Union, we certainly are not 
going to give up on them at all, particularly because if you 
look at Germany, Britain, France, Italy, these are some of the 
contributors ranking right behind the United States and Japan 
in terms of the size of their contribution. So I think 
continuing the efforts with them is an important priority.
    Senator Voinovich. Well, I understand that. What I am 
saying is that we lost them on the Human Rights Council because 
they agreed to do something else. The positive thing is that 
they are with you on these other two areas, and that is great.
    Ambassador Bolton. Yes, and it is going to require work to 
keep that together. We are engaged in that. I think this NATO 
meeting is a good chance to talk to a number of key 
contributors that would be quite helpful.
    Senator Voinovich. Thanks very much.
    Ambassador Bolton. Thank you.
    Senator Voinovich. The meeting is adjourned.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]
                              ----------                              


Additional Statement and Questions and Answers Submitted for the Record


 Prepared Statement of Senator Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Mr. Chairman, thank you for calling this hearing on United Nations 
reform. This is the committee's third hearing on the topic since last 
July, when we heard from Speaker Gingrich and Senator Mitchell. A lot 
has happened since then, and I appreciate your leadership in continuing 
to focus on this issue.
    We have a lot on the agenda at the United Nations. Darfur is at the 
top on the list. Ambassador Bolton, I'd like to commend you for helping 
secure a vote in the Security Council to send U.N. peacekeepers to 
Darfur. That was an important step, but we have a long way to go. 
Reports are that it could take a year or longer to get the United 
Nations to take over the African Union mission. The people of Darfur 
don't have a year; they are dying every day, every hour. I'll be 
interested to hear what can be done, and what you are doing, to 
accelerate this process.
    We all agree that the United Nations needs reform--lots of it--
particularly in the areas of management, budget, and personnel. The 
changes that resulted from the Helms-Biden legislation in the late 
1990s were significant, but more needs to be done so that the United 
Nations can be more effective at the critical work it does.
    And more has been done. I am encouraged by the progress that has 
been made since U.N. members endorsed a long list of reforms at last 
fall's High Level Summit. The Secretary General and member states have 
followed through by creating an ethics office, implementing a 
whistleblower policy, issuing a new financial disclosure policy, and 
forming an Independent Oversight Advisory Committee.
    Secretary General Annan also released a report in March which 
outlined recommendations for a more efficient and cost-effective 
Secretariat and made recommendations on a staff buyout and on reviewing 
outdated mandates. The United Nations needs to clean house on 
underperforming and duplicative positions and programs.
    So far, so good. But I am confused about the U.S. approach to two 
major reform efforts, and the results of them.
    First, I am disappointed that the creation of the Human Rights 
Council to replace the Human Rights Commission fell short of the mark. 
It is an improvement over the old Commission, but is not what it should 
be. What I don't understand is how we got there.
    It was a heavy lift, but not beyond our ability. Why did we fail to 
achieve our objectives? Did we make it a top priority? Did we allocate 
the diplomatic resources necessary to make it happen? For example, did 
the Ambassador or his top deputy attend the negotiating sessions on the 
Council? My understanding is that they were a no-show at most of them, 
and that we were represented by a lower level official.
    Then, having failed to get the Council we wanted, we chose not to 
run for a seat--a serious mistake, in my view, because we will be 
absent at the formation of the Council during the important first year 
of its existence.
    Second, I am concerned about negotiations surrounding the U.N. 
budget, and what I understand to be a potential train wreck.
    In the middle of June, the United Nations will run out of money due 
to the approval last January of a 6-month cap on the Secretary 
General's spending authority--rather than the adoption of the regular 
2-year budget. This interim budget was agreed to after the United 
States threatened to veto a 2-year budget unless it was linked to U.N. 
reforms.
    I understand the tactic of linking budgets to reform. We have done 
it here, and we did it in the Helms-Biden legislation. What I don't 
understand is this--what is our strategy for the coming weeks? Have we 
made our objectives clear to the other member states? Have we set forth 
our redlines? In other words, having linked the budget to reform, have 
we made clear what reforms we expect?
    At a recent hearing in the House, Mr. Ambassador, you said that one 
reason the G-77 members were opposed to the reform agenda is that they 
are concerned ``because the exact dimensions of our reform efforts are 
not entirely clear.'' How can that be? Do we not have a specific list 
of reform objectives--and have we not communicated these objectives to 
the other member states during the last 6 months?
    Our handling of these two issues thus far does not appear to have 
improved our position in New York. I certainly hope that we are not 
approaching an impasse on reform efforts. But I do wonder why we 
haven't been more successful in creating cohesion among member states, 
particularly among our longstanding allies.
    Reform is tough, even when things are going well for the United 
States in the diplomatic arena. In order to succeed, we need a full-
court diplomatic press. I don't see much evidence of that, and I am not 
convinced that we are surrounded by much goodwill as negotiations go 
forward.
    So I look forward to hearing from the Ambassador about his plan for 
success.
                                 ______
                                 

Responses of Ambassador John Bolton to Questions From Senator Joseph R. 
                               Biden, Jr.

    Question. In your testimony before the Foreign Relations Committee 
in October 2005, you said that ``In addition to management reform, the 
question of reform of the fundamentally broken U.N. machinery on human 
rights remains a very high priority for us.'' I am concerned about 
press reports that the United States sent confusing messages during the 
negotiations to establish the Human Rights Council, and was not fully 
engaged in the process (for example, ``U.S. Seen as Failing To Engage 
in U.N. Process,'' Los Angeles Times, March 18, 2006).

  <bullet> (a) When did negotiating meetings begin? How many were held?
  <bullet> (b) At what level were negotiations for the Human Rights 
        Council conducted? What proportion of member states had 
        Permanent Representatives negotiating in the meetings?
  <bullet> (c) Were you present in negotiating meetings from the time 
        that they began? If not, when did you enter the negotiations? 
        In how many negotiating meetings did you participate?
  <bullet> (d) In your final meeting with General Assembly President 
        Eliasson before the draft text of the Human Rights Council 
        resolution was presented, what did you outline as the U.S. top 
        priorities? Did you indicate that the two-thirds voting 
        criteria for membership was a redline?

    Answer.
    (a) The negotiations began on October 11.
    (b) We were represented at the more than 1,000 hours of 
negotiations by various senior-level officials, including senior-level 
experts from USUN, a Deputy Assistant Secretary from State Department, 
IO Assistant Secretary, Kristen Silverberg, and USUN's Deputy Permanent 
Representative, Ambassador Alejandro Wolff.
    (c) I was always involved closely in the negotiating process, 
starting with a hard fought initiative to include in the World Summit 
Outcome Document a commitment to strengthen the U.N. human rights 
machinery and create a Human Rights Council (paragraphs 157-160), which 
I negotiated. From that point forward, we faced significant obstacles 
from a strong contingent of states that lack a genuine commitment to 
the protection and promotion of human rights. The United States played 
an active role in overcoming hardcore obstructions and keeping 
negotiations alive and on track. Throughout this process and up until 
the day of adoption, we continued to particularly press for basic 
measures to try to ensure a credible membership.
    (d) Our suggestion that candidates for the HRC present an open 
letter to the General Assembly President outlining their interest, 
qualifications, and commitments/pledges to improve human rights was 
accepted and proved to be a useful mechanism in the first HRC 
elections. Throughout the negotiating process and in final meetings, 
including the last meeting with President Eliasson, we stressed the 
need for sufficient tangible measures to improve the quality of 
membership. This core position had been explained to President 
Elliasson many times in New York, as well as in meetings with Secretary 
Rice and other high-level officials in Washington. We asserted that 
gross abusers of human rights, including countries which are under 
Security Council sanction for human rights abuses or terrorism, 
pursuant to articles 41 and 42 of the U.N. Charter, be ineligible to 
serve on the Council. That fundamental proposal was intended to urge 
the international community to draw a line beyond which certain human 
rights practices would fall so short of minimal standards that that 
country should not be a member of the Council. It stands to reason that 
any government deemed to pose a threat to peace and security for human 
rights abuses should be disqualified. The other core U.S. position--a 
requirement HRC members be elected by a majority of two-thirds of those 
voting and present in the General Assembly--was also intended to ensure 
that the new body included adequate safeguards to keep repressive 
states off the Council. We advocated consistently for both these 
measures in order to ensure that the HRC would be truly effective. 
These negotiations were a unique opportunity to do better than before 
and to achieve new levels of credibility and efficiency to protect and 
institutionalize the rights of the world's vulnerable populations. The 
United States will continue to engage with the Council to try to 
safeguard and expand human rights around the world.

    Question. The United Nations biannual budget contains a $950 
million limitation on the Secretariat's spending authority--which means 
that the United Nations will not have the authority to spend money 
after June 30 unless the U.N. Budget Committee acts. The United States 
pushed for spending to be capped, contingent on progress being made in 
implementing management and budget reforms.
    In recent testimony before the House Committee on Government 
Reform, you said that ``the exact dimensions of our reform efforts are 
not entirely clear.''

  <bullet> Can you explain this statement?
  <bullet> Does the administration have a list of specific reform 
        objectives to be met in order to support lifting the spending 
        cap in June? (Or in September, if the cap is extended by 90 
        days?)
  <bullet> Did we put forth a list in January, including redlines, as a 
        basis for negotiations when we pushed for the budget cap? If 
        not, why?

    Answer. At the time of this testimony, the General Assembly had 
voted to reject many of the reforms proposed by the Secretary General, 
as outlined in A60692, ``Investing in the United Nations: for a 
Stronger Organization Worldwide.'' Because it was unclear how the 
Secretary General would respond to this resolution, the exact 
dimensions of the proposed reforms at that point were also unclear. As 
I stated in this testimony, member states were awaiting the 
Secretariat's further reports on the reform proposals that were to 
outline the exact dimensions of the reforms contemplated by the 
Secretariat. The G-77 did state that one of the reasons for their 
refusal to agree to the terms of the Secretary General's reform 
proposals was that they could not make an informed judgment until the 
exact dimensions of the reform proposals were clarified by the 
Secretariat.
    The General Assembly agreed, by consensus, to lift the spending cap 
on June 30, 2006. The United States, Japan, Australia, and Canada 
disassociated from the consensus because no additional reforms had yet 
been adopted to justify this action. In the weeks and months leading up 
to the lifting of the cap, the United States sought to identify 
particular reforms that it believed could be enacted before the time 
came to lift the cap. The United States identified reforms in three key 
areas, or buckets, where we believed it was possible to reach 
consensus: Modernizing the Secretariat; improving oversight, 
accountability and governance, and mandate review. The United States 
circulated a nonpaper to all member states outlining these areas of 
reform. In order to show flexibility and compromise the United States 
indicated that it considered it important to obtain progress in each of 
the key areas, but did not define any one particular item that had to 
be achieved prior to lifting the cap. The United States emphasized that 
it would look to the overall results across the three areas in judging 
progress sufficient to lift the cap. The General Assembly failed to 
reach consensus on any of these reforms before the cap was lifted. One 
week after lifting the cap, the General Assembly reached consensus on a 
resolution adopting certain reforms, including among others, agreement 
to replace the current information technology system with an improved 
information and communication technology infrastructure, approval of 
international public sector accounting standards, and expanded 
discretionary authority for the Secretary General with regard to the 
budget. The United States joined in consensus on a resolution adopting 
these limited reforms.
    The United States specifically referred to the reforms outlined in 
the Outcome Document adopted by world leaders in the October summit as 
the basis for its negotiations pending more specific follow-on reform 
proposals that were then being prepared by the Secretariat (pursuant to 
the Outcome Document). The first installment of the Secretary General's 
follow-on reform proposals came in A/60/692, ``Investing in the United 
Nations: for a Stronger Organization Worldwide'' and was not made 
public until March.
                                 ______
                                 

  Response of Ambassador John Bolton to a Question by Senator George 
                                 Allen

    Question. In July, I understand the United Nations will, once 
again, meet to discuss the illicit trafficking in small arms and light 
weapons. I would hope you will, once again, play a leading role in 
rejecting any measures that would restrict or impede the ability of 
U.S. firearm manufacturers, who are already subject to stringent export 
regulations, to produce and market their products. Does the U.S. 
position remain the same as it was in 2001 when you addressed this U.N. 
conference?

    Answer. The U.S. position on key issues remains the same as at the 
2001 U.N. conference. That is, at the June 26-July 7 U.N. Review 
Conference on Small Arms and Light Weapons, the United States will 
oppose: (1) Any efforts that call for restrictions on the legal trade 
and possession of firearms; (2) inclusion of ammunition in any outcome 
document; or (3) any effort to impose a blanket ban on transfers to 
nonstate actors. I will work closely with the U.S. delegation, led by 
Under Secretary, Robert Joseph, to advance and protect U.S. interests.
                                 ______
                                 

    Responses of Ambassador John Bolton to Questions by Senator Mel 
                                Martinez

    Question. How can the new U.N. Human Rights Council avoid the same 
problems that plagued the previous U.N. Commission on Human Rights?

    Answer. The Council could avoid the problems of its predecessor by 
focusing its time and resources on civil and political rights rather 
than so-called economic rights, in-country technical assistance and 
advisory services wherever needed, implementation of existing human 
rights instruments rather than creation of new ones, and situations 
involving mass, flagrant, and systematic human rights violations 
perpetrated by governments.
    We've been concerned by early actions of the Council including 
anti-Israel measures, and the adoption of two new international 
instruments that the United States considers flawed (on enforced 
disappearances and on enforcing economic rights).
    Nonetheless, we will continue to work hard as a nonmember of the 
Council with democratic allies to urge effective action at the Council.

    Question. What are the ideal membership requirements for States 
seeking inclusion on the Human Rights Council? Can these requirements 
be enacted under the current Human Rights Council framework?

    Answer. Ideally, every member of the Council would have a firm and 
demonstrated commitment to the protection and promotion of human 
rights. Regrettably, U.S. calls for more stringent standards for 
elections were not adopted. We had called for a class of rank abusers 
to be disqualified from running such as states under U.N. Security 
Council sanctions for human rights abuses or sponsorship of terrorism, 
and a two-thirds voting requirement in elections for the Council in the 
UNGA.
    In recent years, U.S. representatives have consistently made clear 
our view that the U.N.'s principal human rights body could only improve 
if its composition improved, since the now-defunct Commission on Human 
Rights was comprised of roughly 35 percent serious human rights 
violators. Consequently, the United States voted against the U.N. 
General Assembly resolution establishing the Council on March 15, 2006, 
because there was little or no chance of a substantial improvement in 
membership.
    Perhaps, as a result of the requirement that Council members be 
individually elected in a secret ballot, a slight improvement in 
composition (compared to the Commission) has been achieved in the 
Council, with Iran and Venezuela defeated and some recent Commission 
members such as Sudan and Zimbabwe not running. However, the repressive 
Government of Cuba was easily elected.

    Question. With an increase in its budget and a mandate to meet more 
often and be more proactive, do you think there is potential for 
positive results from the new Human Rights Council?

    Answer. We have been concerned and discouraged by the Council's 
early decisions. However, crucial upcoming tests are whether the 
Council will adopt country-specific resolutions on critical cases like 
Sudan, Cuba, North Korea, and Burma; maintain the civil and political 
rights mandates along with the economic rights mandates favored by 
developing countries; eliminate the wasteful Human Rights 
Subcommission; concentrate on practical technical assistance and 
advisory services; and establish a useful approach to ``Universal 
Periodic Review'' of U.N. members concerning human rights performance. 
We will assess the situation over the next few months.

    Question. Can you provide some insight into the dynamics that led 
to the election of some of the countries that much of the world 
considers poor examples of governments that respect human rights? 
Should it be seen as a protest of some kind? Will the composition of 
the Council adversely affect the decisions that it will have to make? 
Since the new rules allow suspension of member states that commit ``. . 
. gross, systemic human rights violations,'' is it likely that some of 
these nations now on the Council with poor human rights records could 
be looked at for suspension?

    Answer. Countries with poor human rights records frequently engage 
in hardnosed campaigning involving vote trading, reciprocal promises of 
support, and threats of withheld aid and favors.
    Nations on the Council such as Cuba should be looked at for 
suspension, although the rules for suspension make such a decision 
unlikely.

    Question. What does the developing world stand to gain by blocking 
U.N. reform? What is the outlook on passing these reforms in the near 
term (3-6 months)?

    Answer. We believe that the developing nations have much to lose by 
opposing U.N. reform. The G-77 is resisting several efforts that would 
overhaul or streamline basic managerial structures and practices and 
improve the Secretariat's overall effectiveness. These reforms are 
critical to ensuring that the United Nations is fully equipped to carry 
out its important work in the areas of peace and security, human rights 
and democracy, and development.
    One reason why the G-77 is resisting these efforts is due to their 
concern that reforms such as empowering the Secretary General in his 
capacity as Chief Administrative Officer of the United Nations would 
cede authority from the General Assembly. They also may be concerned 
that proposals to outsource some administrative functions would cut 
U.N. jobs currently held by their nationals.
    Nevertheless, the United States will continue to press for 
significant management reforms, even though we acknowledge it will be 
an uphill battle. We have engaged the G-77 directly on the details of 
our reform proposals and gained agreement in several areas, including a 
fully operational ethics office, improved financial management 
practices, and greater public access to U.N. records. In the short 
term, we are also trying to reach an initial agreement on the review of 
program mandates. And in September, we will push for oversight reforms, 
which are critical to restoring the U.N.'s credibility and reputation.

    Question. I commend your efforts to reach out to the G-77 nations. 
How successful do you think the United States can be in persuading 
moderate members of the G-77 to support further reform efforts?

    Answer. We have continued to see sharply divided positions emerging 
on some key issues. Many members of the Group of 77 (G-77) are 
resisting efforts by the Secretariat to reform and streamline basic 
managerial structures and practices. This is especially the case where 
the G-77 feels the Secretariat would be given flexibility at the 
expense of UNGA micromanagement. We have engaged the G-77 directly on 
the details of our reform proposals and gained agreement in several 
areas, including a fully operational ethics office, improved financial 
management practices, and greater public access to U.N. records. In 
private we are finding that many G-77 members agree with our efforts, 
but feel that more is gained in terms of influence, if they vote as a 
bloc with the G-77. This is why our efforts are being directed not only 
at moderate members but also those G-77 leaders encouraging a bloc 
solidarity which undermines achievement of a reformed United Nations, 
which would actually deliver better for G-77 nations.

    Question. Can you provide your assessment of the current OIOS 
oversight arrangement; what has been done so far to correct some of its 
defects; and what might also be done to make the OIOS more autonomous, 
effective, and credible?

    Answer. OIOS has made significant progress in promoting 
accountability at the United Nations, and we are strongly committed to 
its success. Since 1995, OIOS recommendations have improved management 
and helped save or recover over $175 million. Nevertheless, OIOS has 
weaknesses that need to be addressed.
    Recent efforts by the administration have focused on strengthening 
OIOS transparency and independence. Beginning in 2005, all OIOS reports 
were made available to U.N. members upon request. However, OIOS still 
lacks an independent budget and is beholden to those it is responsible 
for investigating. The conclusions in the recent report by the U.S. 
Government Accountability Office support our view that OIOS funding 
arrangements create a potential conflict of interest. Therefore, the 
administration is pressing for the establishment of the Independent 
Audit Advisory Committee to ensure OIOS operational independence of the 
U.N. Secretariat and validate its working methods.

    Question. Do you think withholding U.S. funding from the regular 
U.N.-assessed budget would be an effective means of promoting U.N.-
reform efforts at this time?

    Answer. We do not believe that this is the appropriate time to 
withhold dues from the United Nations. Although much work remains to be 
done, we have made some progress on reform. The United States is still 
actively negotiating many additional reforms proposed by the Secretary 
General, though we must acknowledge it will be an uphill battle.
    Although far more progress is needed, the General Assembly has now 
enacted some important steps: Establishment of an Ethics Office; 
strengthened financial disclosure requirements; increased protection 
from retaliation for reporting misconduct; increased resources for 
oversight; a commitment to modernize the information technology 
infrastructure; some limited authority for the Secretary General to 
redeploy staff and resources; improved financial management practices; 
and adoption of International Public Sector Accounting Standards.
    We hope to see additional progress in the fall, when the General 
Assembly resumes its consideration of U.N. reform proposals. At that 
time, we will be in a better position to determine whether additional 
leverage, such as withholding, is necessary to enable us to advance our 
reform agenda.

    Question. Can the reform agenda survive the Secretary General 
transition? Are there any indications on how the next Secretary General 
might be chosen and what a good candidate might look like from a U.S. 
perspective?

    Answer. We are consulting closely with members of the Security 
Council to reach agreement on a candidate to succeed U.N. Secretary 
General, Kofi Annan, whose term ends December 31. The members of the 
Security Council held a straw poll on Monday, June 24, to get a sense 
of the degree of support for each of the four currently declared 
candidates and will continue to work closely together.
    While it is unclear what impact the straw poll will have on the 
race, we are continuing our review of candidates for this position. 
Candidates must be nominated by a member state. The only individuals 
thus far who have been nominated are South Korean FM, Ban Ki-Moon; Sri 
Lankan diplomat, Jayantha Dhanapala; Thai Deputy Prime Minister, 
Surakiart Sathirathai; and U.N. Under Secretary General for 
Communications and Public Information, Shashi Tharoor, who is a citizen 
of India. Other candidates might emerge later in the process.
    The United States believes the selection of the Secretary General 
is not bound by regional considerations and should be based on 
individual qualifications. It is also essential that the next Secretary 
General continue with the reform agenda and our evaluation of 
candidates will be based on their commitment to U.N. reform and to 
responsible budgeting specifically.
    We believe it is particularly important for the next Secretary 
General to have the broad vision, high ethical standards, and 
exceptional leadership and management skills needed to run an 
organization as complex as the United Nations.
    We have not made any decisions regarding candidates, and will 
continue to consult closely with other Security Council members. We 
hope the selection process can be completed by September or October so 
that the new Secretary General will have a sufficient transition period 
in which to prepare for his or her new responsibilities.

                                  <all>

</pre></body></html>
